<html>
<title> - CREATING OPPORTUNITIES THROUGH IMPROVED GOVERNMENT SPECTRUM EFFICIENCY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





 CREATING OPPORTUNITIES THROUGH IMPROVED GOVERNMENT SPECTRUM EFFICIENCY

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 13, 2012

                               __________

                           Serial No. 112-177






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




      Printed for the use of the Committee on Energy and Commerce
                       energycommerce.house.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

85-378 PDF                WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    HENRY A. WAXMAN, California
  Chairman Emeritus                    Ranking Member
CLIFF STEARNS, Florida               JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky                 Chairman Emeritus
JOHN SHIMKUS, Illinois               EDWARD J. MARKEY, Massachusetts
JOSEPH R. PITTS, Pennsylvania        EDOLPHUS TOWNS, New York
MARY BONO MACK, California           FRANK PALLONE, Jr., New Jersey
GREG WALDEN, Oregon                  BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
MIKE ROGERS, Michigan                ELIOT L. ENGEL, New York
SUE WILKINS MYRICK, North Carolina   GENE GREEN, Texas
  Vice Chairman                      DIANA DeGETTE, Colorado
JOHN SULLIVAN, Oklahoma              LOIS CAPPS, California
TIM MURPHY, Pennsylvania             MICHAEL F. DOYLE, Pennsylvania
MICHAEL C. BURGESS, Texas            JANICE D. SCHAKOWSKY, Illinois
MARSHA BLACKBURN, Tennessee          CHARLES A. GONZALEZ, Texas
BRIAN P. BILBRAY, California         TAMMY BALDWIN, Wisconsin
CHARLES F. BASS, New Hampshire       MIKE ROSS, Arkansas
PHIL GINGREY, Georgia                JIM MATHESON, Utah
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                JOHN BARROW, Georgia
CATHY McMORRIS RODGERS, Washington   DORIS O. MATSUI, California
GREGG HARPER, Mississippi            DONNA M. CHRISTENSEN, Virgin 
LEONARD LANCE, New Jersey            Islands
BILL CASSIDY, Louisiana              KATHY CASTOR, Florida
BRETT GUTHRIE, Kentucky              JOHN P. SARBANES, Maryland
PETE OLSON, Texas
DAVID B. McKINLEY, West Virginia
CORY GARDNER, Colorado
MIKE POMPEO, Kansas
ADAM KINZINGER, Illinois
H. MORGAN GRIFFITH, Virginia

                                 _____

             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
LEE TERRY, Nebraska                  ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
CLIFF STEARNS, Florida               EDWARD J. MARKEY, Massachusetts
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARY BONO MACK, California           DORIS O. MATSUI, California
MIKE ROGERS, Michigan                JOHN BARROW, Georgia
MARSHA BLACKBURN, Tennessee          DONNA M. CHRISTENSEN, Virgin 
BRIAN P. BILBRAY, California             Islands
CHARLES F. BASS, New Hampshire       EDOLPHUS TOWNS, New York
PHIL GINGREY, Georgia                FRANK PALLONE, Jr., New Jersey
STEVE SCALISE, Louisiana             BOBBY L. RUSH, Illinois
ROBERT E. LATTA, Ohio                DIANA DeGETTE, Colorado
BRETT GUTHRIE, Kentucky              JOHN D. DINGELL, Michigan (ex 
ADAM KINZINGER, Illinois                 officio)
JOE BARTON, Texas                    HENRY A. WAXMAN, California (ex 
FRED UPTON, Michigan (ex officio)        officio)

                                  (ii)



























                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     4
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................     6
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     6
Hon. Doris O. Matsui, a Representative in Congress from the State 
  of California, opening statement...............................     7
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     8
Hon. Mary Bono Mack, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     9
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     9
Hon. John Barrow, a Representative in Congress from the State of 
  Georgia, opening statement.....................................    10

                               Witnesses

Karl Nebbia, Associate Administrator, Office of Spectrum 
  Management, National Telecommunications and Information 
  Administration, Department of Commerce.........................    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   147
Major General Robert E. Wheeler, USAF, Deputy Chief Information 
  Officer for Command, Control, Communications, and Computers 
  (C4) and Information Infrastructure, Department of Defense.....    24
    Prepared statement...........................................    26
    Answers to submitted questions...............................   155
Mark L. Goldstein, Director, Physical Infrastructure Issues, 
  Government Accountability Office...............................    35
    Prepared statement...........................................    37
    Answers to submitted questions...............................   162
Douglas C. Smith, President and Chief Executive Officer, Oceus 
  Networks.......................................................    63
    Prepared statement...........................................    65
    Answers to submitted questions...............................   166
Preston Marshall, Deputy Director, Information Sciences 
  Institute, Viterbi School of Engineering, University of 
  Southern California............................................    81
    Prepared statement...........................................    83
    Answers to submitted questions...............................   168
Mark Racek, Director, Global Spectrum Policy, Ericcson, Inc......    91
    Prepared statement...........................................    93
    Answers to submitted questions...............................   172
Steve B. Sharkey, Director, Chief Engineering and Technology 
  Policy, T-Mobile USA, Inc......................................   100
    Prepared statement...........................................   102
    Answers to submitted questions...............................   175

                           Submitted Material

Letter, dated September 12, 2012, from Steven K. Berry, President 
  and Chief Executive Officer, Competitive Carriers Association, 
  to Mr. Walden and Ms. Eshoo, submitted by Ms. Eshoo............   118
Letter, dated September 12, 2012, from Steve Largent, President 
  and Chief Executive Officer, CTIA-The Wireless Association, et 
  al., to committee and subcommittee leadership, submitted by Mr. 
  Shimkus........................................................   130

 
 CREATING OPPORTUNITIES THROUGH IMPROVED GOVERNMENT SPECTRUM EFFICIENCY

                              ----------                              


                      THURSDAY, SEPTEMBER 12, 2012

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:16 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. Greg 
Walden (chairman of the subcommittee) presiding.
    Members present: Representatives Walden, Terry, Stearns, 
Shimkus, Bono Mack, Blackburn, Bilbray, Bass, Gingrey, Scalise, 
Latta, Guthrie, Kinzinger, Barton, Eshoo, Markey, Matsui, 
Barrow, Christensen, DeGette, and Waxman (ex officio).
    Staff present: Gary Andres, Staff Director; Ray Baum, 
Senior Policy Advisor/Director of Coalitions; Andy Duberstein, 
Deputy Press Secretary; Neil Fried, Chief Counsel, 
Communications and Technology; Debbee Keller, Press Secretary; 
Alexa Marrero, Deputy Staff Director; David Redl, Counsel, 
Communications and Technology; Charlotte Savercool, Executive 
Assistant; Lyn Walker, Coordinator, Admin/Human Resources; 
Shawn Chang, Democratic Senior Counsel; Margaret McCarthy, 
Democratic Professional Staff Member; Roger Sherman, Democratic 
Chief Counsel; David Strickland, Democratic FCC Detailee; and 
Kara Van Stralen, Democratic Special Assistant.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. If everybody would please take their seats, we 
will get started here.
    Good morning, and welcome to our hearing on creating 
opportunities to increase government spectrum efficiency. I 
welcome our witnesses and appreciate their counsel as we 
examine ways to increase government spectrum efficiency and 
satisfy American consumers' growing demand for wireless 
broadband services. I am convinced we can create new jobs from 
our work and bring innovation and efficiency to the Federal 
Government.
    In the months since the Congress passed the Middle Class 
Tax Relief and Job Creation Act, including the spectrum 
incentive auction provisions this subcommittee brought to the 
table, we have turned our attention to Federal Government usage 
of spectrum. In coordination with Representative Eshoo, I 
appointed a working group led by Brett Guthrie and Doris 
Matsui, and asked them to examine in depth how the government 
uses its spectrum. Our goal is to create more jobs by freeing 
up spectrum to meet demand and spur innovation in America. It 
is also our goal to bring innovation and spectrum efficiency to 
the government users.
    One way we can create additional spectrum opportunities is 
through use of the Commercial Spectrum Enhancement Act. As you 
know, under the CSEA, commercial providers bear the cost of 
moving Federal incumbents to clear spectrum. Given the 
budgetary pressures facing the country, and the potential for 
sequestration to pose significant challenges, especially to our 
defense agencies, we have an opportunity to work together to 
optimize the value of underutilized spectrum and upgrade 
equipment and services used by our Federal agencies.
    The best example of this process is the 2006 AWS-1 auction, 
which made 90 megahertz of spectrum available for wireless 
broadband and raised more than $13.7 billion for the Treasury.
    The President's Council of Advisors on Science and 
Technology, affectionately known as PCAST, has provided us with 
one view of how to create spectrum opportunities in Federal 
bands. Rather than look to ways to increase the efficiency of 
the government users, however, the recently released PCAST 
report assumes that it would cost too much and take too long to 
move most Federal systems. Instead, the report recommends that 
commercial providers operate around government systems and 
share spectrum. The concept of sharing is not new, and is 
certainly worth continued exploration. Sharing technologies and 
the underlying business models, however, are not sufficiently 
developed to make it the entire focus of our spectrum strategy 
nor to supplant clearing.
    Spectrum sharing may hold potential in the future for some 
spectrum bands where clearing is impossible or we have 
certainty that the cost of relocation exceeds the value of that 
spectrum. I am not ready to accept the opinion that ``the norm 
for spectrum use should be sharing'' today. That is simply not 
good enough.
    I am also concerned about the conclusion which appears 
based, at least in part, on a recent NTIA report concluding 
that it would cost $18 billion and take 10 years to clear the 
Federal Government from the 1.7 gigahertz band. The NTIA has 
admitted, however, that it did not conduct an independent 
analysis to reach those estimates. Instead, the NTIA compiled 
estimates from the Federal users. As the GAO's written 
testimony for today's hearing indicates, we need more rigorous 
analysis before giving up on clearing spectrum and working to 
maximize efficiency in how the government uses that spectrum.
    I appreciate our witnesses' testimony today. You are all 
very talented individuals who really help us in our work, and 
we appreciate what you are bringing to the table. I am 
particularly pleased to see Major General Wheeler with us 
today, as NTIA's preliminary responses to a letter from our 
government spectrum working group indicate that the Department 
of Defense is the largest government user of spectrum, with 
just under 90 percent of the ground-based assignments and over 
99 percent of the airborne use of government spectrum below 3.1 
gigahertz. Government systems can and should be comprised of 
the most efficient and technologically advanced products 
available. We appreciate the work you have given to our working 
group, and to this committee.
    Working together, I think we must increase efficiency, 
upgrade government systems, and make spectrum available to meet 
our country's wireless broadband demand.
    [The prepared statement of Mr. Walden follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. And with that, I would yield the balance of my 
time to the vice chairman of the subcommittee, Mr. Terry, for 
additional comments.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman. I just want to thank 
you for holding this hearing and this series on how we are able 
to more efficiently use our spectrum. This time, the issue is 
spectrum efficiency and discussions about Department of Defense 
spectrum, and whether it is best used in a variety of different 
ways by allowing access to it by either having full power over 
it or shared to the private sector, and as consumers continue 
to demand more spectrum or access to spectrum.
    Now, I also--just in my balance, General Wheeler, I 
represent Stratcom, a big user of the communication system and 
the spectrum, and so I probably have more of a nuanced position 
in making sure that we protect those assets for our military, 
at the same time, making sure that we do use the spectrum most 
efficiently.
    And I yield back.
    Mr. Walden. Gentleman yields back the balance of his time. 
I now recognize my friend from California, Ms. Eshoo, for her 
opening statement, and thank her for her work on the working 
group.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, and good morning to all 
of the witnesses. We thank you for being here. This is a very 
distinguished panel. To Major General Wheeler, I think that 
this may be a first. I don't ever recall in my service on this 
subcommittee where we had the DoD testifying relative to 
telecommunications and spectrum. So this is an important 
hearing, and I think we are all going to draw a great deal from 
your testimony.
    To advance a 21st century spectrum policy, I think we have 
to think outside of the box. With data traffic on mobile 
service provider networks expected to increase 18 times from 
2011 to 2016, we have to, I think, also move quickly, while we, 
of course, consider both clearing and sharing to most 
efficiently use this scarce resource. I don't see this as an 
either/or situation. I think that they are complimentary.
    Through the passage of legislation authorizing voluntary 
incentive spectrum auctions, our subcommittee took an important 
step toward achieving the President's goal of freeing up 500 
megahertz of spectrum for expanded wireless broadband service. 
But our work is not complete, as evidenced by NTIA's report on 
the 1755 megahertz band, as well as the recently adopted report 
by the President's Council of Advisors on Science and 
Technology, as the chairman said we affectionately call PCAST.
    Today, I would like to offer three observations that I 
believe are necessary to achieve our vision of a 21st century 
spectrum policy.
    First, there is a simple reality that Federal agencies do 
not have the same financial incentive as commercial wireless 
providers to efficiently use the spectrum they hold. The PCAST 
report wisely proposes the concept of spectrum currency, 
because it does have enormous currency--it is gold--an 
accounting, an allocation, and an incentive system that would 
encourage Federal agencies to relinquish or share more of their 
spectrum.
    Second, we need greater investment in R&D. The use of 
database technology as well as automatic wifi switches, small 
cell technology, and cognitive radio can be part of the 
solution, making more efficient use of spectrum and even 
increasing the usability of spectrum above 2 gigahertz.
    Finally, increased communication between the Federal 
Government and commercial wireless providers will promote 
greater collaboration and a mutual understanding of each 
other's needs. I don't think that has really taken place. I am 
encouraged by recent industry testing that explores the 
feasibility of sharing spectrum between Federal and commercial 
users in the 1755-1780 megahertz band. Embracing these concepts 
will support a growing base of mobile users with the bandwidth 
needed to drive the next generation of mobile applications and 
services.
    I think that this is an opportunity for us to plan our 
spectrum future, and to keep America number one in this, and I 
think that is the goal for all of the members of the entire 
subcommittee.
    I now would like to yield the balance of my time to 
Congresswoman Matsui, who has done, I think--really made 
wonderful contributions to the working group with Mr. Guthrie, 
and also has offered legislation with Mr. Stearns on this very 
subject matter.

OPENING STATEMENT OF HON. DORIS O. MATSUI, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Matsui. Thank you very much, Ranking Member Eshoo, for 
yielding me time, and I want to thank the chairman for holding 
this hearing today. I want to join in welcoming our witnesses 
here today.
    You know, over the last several months the spectrum working 
group has conducted a series of productive meeting with 
government and industry stakeholders, and I do believe that 
DOD, NTIA, and the FCC understand the urgency that they must 
reevaluate underutilized government spectrum holdings. There 
could be viable opportunities for both spectrum clearing and 
sharing to meet the short-term and long-term demands for a 
digital economy, all while protecting our national security 
interests.
    It is my hope that today's panel will provide clear answers 
on which spectrum bands can be cleared below 3 gigahertz, and 
as a practical manner, which bands or areas would be ideal for 
sharing above 3 gigahertz. In addition, I am also interested in 
hearing from our panelists about how we can move forward in the 
short-term on repurposing the 1755 to 1850 bands, especially 
the lower megahertz between the 1755 and 1780 bands. I am also 
interested in hearing new ideas on incentivizing government 
agencies to relocate, including PCAST recommendations on 
spectrum currency.
    The CSMAC process should have the full involvement of all 
sides. The government needs to talk to industry and vice versa. 
The process must not be a one-way street. The industry testing 
effort by T-Mobile, Verizon, and AT&T will also provide 
valuable insight and hopefully answer some important questions.
    I do look forward to working with my colleagues and all 
stakeholders moving forward. I yield back the balance of my 
time.
    Mr. Walden. The gentlelady yields back the balance of her 
time. The Chair now recognizes the former chairman of this 
subcommittee, Mr. Stearns, for his comments.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman. In February, I think 
all of us realized after a year of hearings and discussions 
which affected all the stakeholders, we passed important 
legislation that will result in a new--in a number of new 
spectrum auctions. Obviously, however, our work is not done. We 
must ensure that all spectrum users are using their spectrum as 
efficiently as possible, including the Federal Government. 
Examining spectrum that could be reallocated from government 
agencies and commercially auctioned could open money-raising 
opportunities to offset the upcoming sequestration.
    As my colleague, Congresswoman Matsui, has indicated, I 
encourage my colleagues to take a serious look at the bill that 
she and I introduced, which is H.R. 4817, earlier this year. I 
believe spectrum sharing should be explored as part of a long-
term solution. We simply, my colleagues, do not have the 
technology for such sharing available today is my 
understanding, and it is unclear what business models would 
sustain them if we used it. So I believe that sharing should 
not be considered simply as a substitution for clearing. I 
appreciate, Mr. Chairman, this subcommittee's continuing focus 
on spectrum. It is extremely important for innovation, 
productivity, and the future of this country.
    And so I look forward to hearing from our witnesses today.
    Mr. Walden. Thank the gentleman for his testimony. I now 
recognize the gentlelady from California who has been a real 
leader on our telecom issues, Ms. Bono Mack.

 OPENING STATEMENT OF HON. MARY BONO MACK, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Bono Mack. Thank you, Mr. Chairman. Yesterday in my 
own subcommittee, the Subcommittee on Commerce, Manufacturing, 
and Trade, we took a hard look at growth in the app economy. 
Mr. Chairman, the sector is booming. Today, an estimated 90 
million U.S. consumers spend about 60 minutes each day 
accessing the Internet with smartphones, while another 24 
million people spend 75 minutes a day using the Internet on 
their tablets. If you haven't heard business leaders talk about 
the importance of mobile to their future, then you haven't been 
listening very closely. But what drives all of this growth? You 
guessed it, spectrum, and we need more of it.
    Today we are examining Federal uses of spectrum. 
Unfortunately, the administration seems willing to settle only 
for spectrum sharing, and in my opinion, has based that 
strategy on an incomplete analysis. Spectrum sharing is an 
important piece of the puzzle, but by no means the only 
solution.
    So I look forward to hearing from all of our witnesses 
today. I especially welcome Dr. Marshall, who is a fellow 
Trojan, working at USC, and I know we might not agree on all 
the issues, but we do agree that we are hoping for a big year 
out of Matt Barkley and the USC Trojans, and sorry, Mr. 
Chairman----
    Mr. Walden. The gentlelady yields back her time.
    Mrs. Bono Mack [continuing]. Your Ducks, you know----
    Mr. Walden. We have done all right.
    Mrs. Bono Mack. Yes.
    Mr. Walden. We have done all right. Rose Bowl, yes.
    Ms. Blackburn, we recognize you now.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. I thank you, and I want to welcome our 
witnesses. We do appreciate that you are here, because we all 
agree that we are going to face a spectrum shortage or a 
spectrum crisis. Chairman Bono Mack referenced the hearing that 
we did yesterday that dealt with the app economy. We know what 
is coming toward us, what innovators are bringing to the 
marketplace very soon.
    Now, one of the things we will want to explore today is the 
PCAST report, and then the GAO report, and the differences in 
these two. I think we can all agree that these two reports were 
not compatible when it comes to meeting consumer expectations 
of what is going to be there for their use and available 
spectrum.
    So welcome to all, and I yield back my time.
    Mr. Walden. Gentlelady yields back. Anyone else on our side 
who wants to make a comment? If not, we will return the balance 
of the time and I now recognize the chairman emeritus, Mr. 
Waxman, for an opening statement.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you very much, Chairman Walden, for 
holding this timely hearing on the role of the Federal 
Government and how we can play a part in easing our Nation's 
anticipated spectrum crunch.
    Since April, members of the bipartisan Federal spectrum 
working group led by Representatives Matsui and Guthrie have 
met with Federal agencies and industry stakeholders to explore 
opportunities for maximizing Federal spectrum efficiency. 
Today's hearing provides an opportunity for the entire 
subcommittee to discuss these issues.
    I believe the administration is appropriately pursuing an 
all of the above approach to make more spectrum available for 
commercial mobile services. In 2010, the President called for 
500 megahertz of spectrum to be made available for mobile 
broadband. Since then, the administration has already 
identified and begun freeing up over 400 megahertz of spectrum 
currently occupied by Federal users.
    With the administration's support, this committee has taken 
action as well to increase available spectrum. Working on a 
bipartisan basis, we passed legislation that authorizes the 
first ever incentive auctions. Experts believe the new auction 
mechanism could clear up to 120 megahertz of underutilized 
broadcast television spectrum for commercial broadband 
services.
    In preparation for this hearing, our staff spoke with 
several companies in the wireless industry to discuss options 
for utilizing Federal spectrum better. I am pleased to hear 
that these companies report that there has been an 
unprecedented level of cooperation between Federal and 
commercial stakeholders. In fact, one company told our staff 
that Federal agencies have shared more information in the last 
2 months than in the previous 10 years. This collaborative 
process must continue if we are to meet our shared goal for 
greater spectrum availability.
    Many individual have contributed to the progress we are 
making, and I want to commend Mr. Nebbia, Major General 
Wheeler, Mr. Sharkey, and the other members of the Commercial 
Spectrum Management Advisory Committee for their coordinated 
efforts to make more spectrum available, to fuel wireless 
innovation, and economic growth. I also want to commend efforts 
by members of the President's Council of Advisors on Science 
and Technology in authoring a forward thinking report focused 
on spectrum sharing as a way to improve the use of 
underutilized Federal spectrum. Given the looming spectrum 
crunch, I agree that we cannot afford to take any options off 
the table. Spectrum sharing is an innovative concept that 
should be part of a multi-prong strategy going forward, and I 
look forward to hearing from Dr. Marshall on the work of PCAST.
    When Congress passed the Middle Class Tax Relief and Job 
Creation Act of 2012, they made significant changes to the 
Federal relocation process that created new incentives to 
encourage agencies to participate in the clearing or sharing of 
spectrum. Today, we should explore whether there may be 
additional incentives that would encourage Federal users to 
relinquish more underutilized spectrum. This could be a winning 
proposition for both the commercial and public sectors. 
Properly crafted incentives can give Federal users better tools 
to help fulfill their missions and ensure our Nation's long-
term spectrum needs are met.
    Mr. Chairman, I thank you for this time and I want to yield 
the balance of time that's been allocated to me to Mr. Barrow.

  OPENING STATEMENT OF HON. JOHN BARROW, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF GEORGIA

    Mr. Barrow. I thank the gentleman for yielding.
    Mr. Chairman, today we tackle the important issue of how to 
use government spectrum more efficiently and how to create new 
opportunities that serve our national interest through improved 
efficiency.
    As technology advances, broadband spectrum becomes more and 
more essential to everything we do in our daily lives. Given 
that our spectrum resources are limited, it is essential that 
we identify areas where spectrum isn't being used so well and 
make it available to those who can put it to higher and better 
use. For the past 4 months, I have had the privilege of working 
with the bipartisan Federal spectrum working group on a 
constructed examination of how we can use the Nation's airwaves 
better. I look forward to hearing our panelists' perspectives 
on spectrum clearing and spectrum sharing, and working on a 
common sense strategy to free up spectrum to meet demand before 
we reach a spectrum crisis.
    I thank Mr. Waxman for the time, and I yield back.
    Mr. Walden. Gentleman yields back the balance of his time. 
I think we have had our opening statements from both sides, so 
we will now proceed with the hearing and our witnesses. We 
thank you again for your work in preparing your statements and 
assisting our committee in its work.
    We will start with Mr. Mark Goldstein--I am sorry, Mr. Karl 
Nebbia. We will start at that end. Associate Administrator, 
Office of Spectrum Management, National Telecommunications and 
Information Administration. So Mr. Nebbia, we appreciate your 
being here today. Pull that microphone close and turn it on, 
and you are on.

 STATEMENTS OF KARL NEBBIA, ASSOCIATE ADMINISTRATOR, OFFICE OF 
     SPECTRUM MANAGEMENT, NATIONAL TELECOMMUNICATIONS AND 
   INFORMATION ADMINISTRATION, DEPARTMENT OF COMMERCE; MAJOR 
   GENERAL ROBERT E. WHEELER, USAF, DEPUTY CHIEF INFORMATION 
  OFFICER FOR COMMAND, CONTROL, COMMUNICATIONS, AND COMPUTERS 
  (C4) AND INFORMATION INFRASTRUCTURE, DEPARTMENT OF DEFENSE; 
 MARK L. GOLDSTEIN, DIRECTOR, PHYSICAL INFRASTRUCTURE ISSUES, 
 GOVERNMENT ACCOUNTABILITY OFFICE; DOUGLAS C. SMITH, PRESIDENT 
AND CHIEF EXECUTIVE OFFICER, OCEUS NETWORKS; PRESTON MARSHALL, 
DEPUTY DIRECTOR, INFORMATION SCIENCES INSTITUTE, VITERBI SCHOOL 
OF ENGINEERING, UNIVERSITY OF SOUTHERN CALIFORNIA; MARK RACEK, 
DIRECTOR, GLOBAL SPECTRUM POLICY, ERICSSON, INC.; AND STEVE B. 
 SHARKEY, DIRECTOR, CHIEF ENGINEERING AND TECHNOLOGY POLICY, T-
                        MOBILE USA, INC.

                    STATEMENT OF KARL NEBBIA

    Mr. Nebbia. Chairman Walden, Ranking Member Eshoo, and 
members of the subcommittee, thank you for the opportunity to 
testify on behalf of NTIA, the President's principle advisor on 
telecommunications and information policy, and manager of 
Federal use of the radio spectrum. As Associate Administrator 
for NTIA's Office of Spectrum Management, I oversee frequency 
assignment, engineering, planning, and policy activities. It 
has been my privilege to work along side NTIA's staff, Federal 
spectrum managers, our FCC counterparts, industry 
representatives, and your staff.
    Spectrum--it cannot be overstated the importance of 
spectrum to our Nation. Increasing commercial use of broadband 
is transforming business, healthcare, government, and public 
safety. PCAST estimated that increasing spectrum for wireless 
broadband could yield benefits of over $1 trillion, and create 
millions of American jobs.
    Spectrum also supports vital agency missions. Federal radio 
systems have supported the war on terror, including helping to 
eliminate Osama bin Laden. Weather satellites project hurricane 
paths, helping Americans prepare. Air traffic systems ensure 
that the American public fly safely. These safety and security 
systems provide the underlying framework that allows our 
society to thrive. Federal systems also put Neil Armstrong on 
the Moon, and more recently set curiosity to work on Mars.
    In June, 2010, the President directed that an additional 
500 megahertz be made available for wireless broadband by 2020. 
NTIA and other Federal agencies working in collaboration with 
the FCC, OMB, and OSTP have explored options and priorities. By 
November, 2010, NTIA recommended relocating, reallocating 115 
megahertz of the 1695 to 1710 and 3550 to 3650 bands. NTIA and 
the other agencies then pressed forward to evaluate the 1755-
1850 band. Federal uses include military tactical radio, law 
enforcement surveillance, drone control, air combat training 
systems, air nautical telemetry, and satellite control, among 
others. They all share that spectrum. Spectrum to which to 
relocate these systems is dwindling, as many operations 
actually require characteristics best suited for the spectrum 
beach front.
    In March, 2012, NTIA reported that the full 95 megahertz 
could be repurposed once certain challenges are overcome, and 
based on estimates from 20 agencies with over 3,100 frequency 
assignments in the band, the report projected that clearing 
users would take at least 10 years and cost approximately $18 
billion. While the cost and time estimates are preliminary, 
relocating every system will be costly and take a long time.
    Therefore, NTIA is pursuing a new path to make this band 
available faster and at lower cost than under a relocation-only 
process. Such an approach relies on relocating Federal users 
where feasible and affordable, and sharing spectrum where 
practical.
    A critical component of this approach is to bring industry 
and government together to work collaboratively. In using our 
Spectrum Management Advisory Committee, NTIA organized groups 
of industry and government experts and by accounting for each 
Federal system, along with innovation and commercial 
technology, these groups can tailor and determine the best 
approach. In many cases, we expect recommendations for 
traditional relocation or geographic sharing. In others, we 
would expect that they approach a third option, that is, the 
possibility that commercial and Federal users can share 
frequencies through spectrum availability and technical 
flexibility. Sharing this spectrum could allow for more 
efficient use, matching intermittent or localized government 
use with other uses, and may reduce the uncertainties and 
disruptions that result from the constant threat of relocating 
in the future. We expect the findings of these groups in early 
2013.
    In support of this effort, NTIA and Federal agencies are 
working with Mr. Sharkey at T-Mobile and other carriers to 
perform measurements, while Verizon has committed $5 million to 
test sharing approaches. NTIA is also evaluating 195 megahertz 
in the 5 gigahertz range for unlicensed wifi devices that 
enable service providers to offload traffic. In October, NTIA 
will complete a study identifying the risks as required by the 
Middle Class Tax Relief Act. Further collaborative work with 
industry will be required to understand what technology 
approach will yield the best results, and safeguard Federal 
missions.
    I want to thank the subcommittee for your efforts and 
support to improve the Commercial Spectrum Enhancement Act, 
allowing agencies to recover costs for planning, sharing, 
equipment upgrades, and moving to non-spectrum technology or 
commercial services where possible. Other provisions support 
the transparency and effectiveness of the auction preparation 
process and band transition, and NTIA has begun to implement 
these provisions. NTIA and the Federal agencies have made 
substantial progress and are currently close to meeting the 
President's goal. Our work on the Federal side has already 
recommended or is currently working on as much as 405 total 
megahertz, while safeguarding Federal operations, minimizing 
the cost and making spectrum available quickly.
    We look forward to the successful incentive auctions by the 
FCC, and other initiatives to improve access to nonfederal 
spectrum. I welcome your questions.
    [The prepared statement of Mr. Nebbia follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. I thank you for your testimony. We will now go 
to--Major General Robert Wheeler is next, the Deputy Chief 
Information Officer for Command, Control, Communications, and 
Computers, C4, and Information Infrastructure at the U.S. 
Department of Defense. Major General Wheeler, first, thank you 
for your service to the country. We are all indebted to you and 
the men and women who wear our Nation's uniform and have worn 
it in the past, and we are especially indebted to you for your 
work with us on this topic, so please, go ahead.

                 STATEMENT OF ROBERT E. WHEELER

    Mr. Wheeler. Thank you, sir, I appreciate that. Good 
morning, Chairman Walden, Ranking Member Eshoo, and 
distinguished subcommittee members. Thank you for the 
opportunity to testify before this subcommittee regarding the 
vital importance of scarce radio frequency spectrum to U.S. 
national defense capabilities, the economy, and consumers. My 
name is Major General Robert E. Wheeler, and as we discussed, I 
am the Deputy Chief Information Officer for Command, Control, 
Communications, and Computers, and Information Infrastructure 
Capabilities.
    Military spectrum requirements are diverse and complex 
given the variety of different missions the Department must 
support around the world. For example, the Air Combat Training 
System uses the 1755-1850 megahertz band to support combat 
readiness pilot certification for U.S. aircrews, as well as for 
crews from allied countries. The system is used at training 
ranges and bases across the U.S. with over 10,000 training 
flights per month. I have personally used this system several 
hundred times.
    Spectrum is the critical enabler that ensures information 
is dependably available to train our forces and ensure safe and 
successful mission accomplishment. The Department's use of 
unmanned aerial systems to support its overseas operations 
requires spectrum to process volumes of critical intelligence, 
surveillance and reconnaissance data. Our inventory of UAS 
platforms has increased from 167 in 2002 to nearly 7,500 in 
2010, and created an associated increase in demand for spectrum 
to satisfy those particular missions, and I believe it is going 
to increase even further.
    Within the DoD, we understand that the strength of our 
Nation is rooted in the strength of our economy. We are 
dependent on industry for innovative products that can be used 
for national security. In that regard, we remain fully 
committed in support of our national economic and security 
goals of the President's 500 megahertz initiative. The 
implementation of more effective and efficient use of this 
finite radio spectrum and the development of solutions to meet 
these goals is equally important to both national security and 
the economic goals.
    The Department continues to work with NTIA, other 
administration partners, and industry to develop the 
information required to ensure balanced spectrum repurposing 
decisions that are technically sound and operationally viable 
from a mission perspective.
    The reallocation feasibility assessment of the 1755-1850 
megahertz band shows that while there are challenges to 
overcome, it is possible to repurpose all 95 megahertz of that 
particular spectrum, based upon the conditions outlined in the 
NTIA report. DoD is fully engaged in addressing these 
challenges, by closely working with industry to evaluate 
sharing possibilities.
    The Department estimated it would cost almost $13 billion 
to vacate or relocate out of the 1755 to 1850 megahertz band. 
This estimate was led and overseen by the Department's 
independent Cost Assessment and Program Evaluation, CAPE 
organization, to ensure consistency in methodologies and 
assumptions. The cost to modify or replace the existing systems 
to use the identified comparable spectrum were also included in 
the DoD's analysis.
    Let me briefly address the issue of the lower 25 megahertz 
or the 1755 to 1780 megahertz band. As we worked within NTIA's 
established process to identify the 500 megahertz directed by 
the President, the Federal agencies, including DoD, were 
instructed to study reallocation of the entire 95 megahertz, as 
25 megahertz would not reflect significant progress toward the 
overall end goal. This was due in part to the fact that many of 
the systems, including critical DoD systems, operate in this 
frequency band, operating across the entire 95 megahertz band. 
Thus, a detailed study of vacating solely the lower 25 
megahertz has not been conducted, and the results of the full 
95 megahertz band study cannot be extrapolated to a solution 
for just the lower 25 megahertz.
    The Department has and continues to work with NTIA and the 
Federal Communications Commission to determine ways to share 
spectrum with commercial users when possible. A recent success 
is the FCC's new rules for Medical Body Area Network sensor 
devices in the 2360 to 2390 megahertz band. DoD is also 
cooperatively working with three major wireless providers to 
evaluate sharing the 1755 to 18 megahertz band, including 
spectrum monitoring at selected DoD sites.
    DoD recognizes the need to move forward. We are developing 
a spectrum strategy focused on investing in technologies and 
capabilities aimed at more effective and efficient use and 
management of spectrum, and that begins at the acquisition 
cycle.
    The ability to operate spectrum-dependent national security 
capabilities without causing and receiving harmful interference 
while understanding the critical needs of our Nation's economy 
remains absolutely paramount to this Department. The Federal 
Government and our industry partners have built an impressive 
team that is working toward solving the technical and policy 
issues so we can move ahead. Together, we will develop long-
term solutions to achieving a balance between national security 
spectrum requirements and meeting the expanding demand of 
commercial broadband services.
    I thank you for listening, and the time.
    [The prepared statement of Mr. Wheeler follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. We appreciate your testimony.
    We will now go to Mr. Mark Goldstein, Director, Physical 
Infrastructure Issues for the Government Accountability Office. 
Mr. Goldstein, thanks for your work. We look forward to your 
testimony.

                 STATEMENT OF MARK L. GOLDSTEIN

    Mr. Goldstein. Good morning, Mr. Chairman, members of the 
subcommittee. Thank you for the invitation to testify today on 
issues related to the management of Federal spectrum and 
spectrum sharing.
    Demand for spectrum is increasing rapidly with the 
widespread use of wireless broadband devices and services. 
However, nearly all usable spectrum has been allocated either 
by NTIA for Federal use or the FCC for commercial and 
nonfederal use. Federal initiatives are underway to identify 
Federal spectrum that could be repurposed or possibly shared by 
Federal users, or wireless broadband providers and other 
nonfederal users. Our statement today discusses how NTIA 
manages spectrum to address government-wide spectrum needs, the 
steps NTIA has taken to repurpose spectrum for broadband, and 
as part of an ongoing review, the statement also discusses 
preliminary information from the factors that prevent spectrum 
sharing and actions that can encourage sharing efficient 
spectrum use.
    The following is what GAO has found in the two reports that 
we are talking about today.
    First, while NTIA is responsible for government-wide 
Federal spectrum management, GAO reported in 2011 that its 
efforts in this area had been limited. Almost 10 years ago, the 
President directed NTIA to develop plans identifying Federal 
and nonfederal spectrum needs, and in 2008, NTIA issued the 
Federal plan. We found that this plan did not identify 
government-wide spectrum needs and did not contain key elements 
and conform to best practices for strategic planning. 
Generally, NTIA's primary spectrum management operations do not 
focus on government-wide needs. Instead, NTIA depends on agency 
self-evaluation of spectrum needs, and focuses on mitigating 
interference among spectrum users with limited emphasis on 
overall spectrum management.
    Additionally, NTIA's data management system is antiquated 
and lacks internal controls to ensure the accuracy of agency-
reported data, making it unclear if reliable data informed 
decisions about Federal spectrum use. NTIA is developing a new 
management system, but its implementation is years away.
    Despite these limitations, NTIA has taken steps to identify 
spectrum that could potentially be made available for broadband 
use. For example, in 2010, NTIA evaluated various spectrum 
bands and identified 115 megahertz of spectrum that could be 
repurposed within the next 5 years. For each of the identified 
bands, NTIA reviewed the number of Federal frequency 
assignments within the band, the types of Federal operations 
and functions that the assignments support, and the geographic 
location of Federal users. However, the private sector has 
indicated that most of the frequencies located in these bands 
are not the most useful for expanding commercial broadband 
activities.
    Second, in addition to efforts to repurpose spectrum, some 
stakeholders have also suggested that sharing spectrum between 
Federal and nonfederal users be considered to help make 
spectrum available for broadband. However, ongoing work has 
identified several significant barriers that limit sharing. 
Primarily, many Federal users may lack incentives to share 
inside a spectrum. Typically, paying the market price for a 
good or service helps to inform users of the value of the good 
and provides an incentive for efficient use. Yet Federal 
agencies pay only a small fee to NTIA for spectrum assignments 
and may, in some contexts, have little incentive to conserve or 
to share it. And accurate information about which areas might 
be best shared is inadequate. Federal agencies may also have 
limited budgets to upgrade to more spectrally efficient 
equipment that would better enable sharing. Nonfederal users 
also are reluctant to share with Federal users, due to a 
variety of regulatory hurdles, and are also wary of sharing 
with others in the private sector due to competition concerns.
    Finally, GAO's ongoing work suggests that some actions 
might provide greater incentives and more opportunities for 
more efficient spectrum use in sharing. These actions could 
include studying spectrum usage fees to provide economic 
incentive for more efficient use in sharing, expanding the 
availability of unlicensed spectrum, and increasing the Federal 
focus on research and development of technologies that can 
enable spectrum sharing as well.
    That concludes my statement, Mr. Chairman. I would be happy 
to answer any questions that the committee may have.
    [The prepared statement of Mr. Goldstein follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. Mr. Goldstein, thanks for the work you and your 
people do at GAO. We appreciate it.
    We will now go to Mr. Doug Smith, President and CEO of 
Oceus Networks. Thank you for being here. We look forward to 
your comments, sir.

                 STATEMENT OF DOUGLAS C. SMITH

    Mr. Smith. Good morning, Chairman Walden, Ranking Member 
Eshoo, and distinguished members of the subcommittee. Thank you 
for inviting me to talk with you about how commercial wireless 
broadband technologies can provide opportunities to make 
government spectrum use more efficient and effective.
    I am here today to discuss the importance of commercial 
wireless broadband technology, specifically, 4G LTE as a part 
of the tool set to meet growing broadband communications 
requirements for military and other Federal users.
    Oceus Networks provides mobile broadband communication 
services and tactical military solutions for delivering high 
speed voice, video, and data communications. We are 
headquartered in Reston, Virginia, with a major R&D center in 
Plano, Texas. Our 4G LTE solution, Xiphos, provides mission-
critical apps for Federal users, including the Department of 
Defense, for situational awareness, video streaming, voice over 
IP applications, among other lifesaving apps. Our solution 
provides the functionality of a full cellular network in a 
single unit to address warfighter broadband requirements on the 
move, without traditional cellular architectures.
    Our mobile LTE networks can be placed aboard ships, 
installed in tactical warfighter vehicles, mounted on unmanned 
aerial systems, and/or be soldier backpacked. We provide these 
capabilities to standard headsets or switching algorithms. This 
allows the full cost savings of commercial economies of scale 
to flow to government users.
    The mobile broadband revolution that is transforming 
consumers' daily lives has profound implications for government 
users, presenting both opportunities and challenges. DoD has a 
level of spectrum requirements that is unprecedented, driven by 
increasing data needs and increased reliance on advanced 
technology capabilities. Congress recognized the prevalence of 
LTE as the worldwide commercial standard for wireless broadband 
when adopting it as the standard for the nationwide public 
safety network. Such policies reflect an even larger reality. 
The expanded apps, continually evolving devices, and improved 
network performance of commercial mobile networks are embraced 
by most of our Nation's young men and women who are entering 
the military service. They grew up with wireless broadband 
devices, ranging from smartphones to tablets. They ask how the 
same advanced capabilities with stronger security features and 
military-appropriate apps could be made available when in 
training and in battle.
    How are these technologies being used by the military 
today? One example is a Navy pilot in which Oceus Networks is 
participating to provide communication systems using our Xiphos 
solution, which marks the first operational deployment of 4G 
LTE for the Department of Defense. This 4G tactical network, 
using Android devices, will support communications, including 
classified communications, for up to 3,500 Marines and sailors 
deployed with the Kearsarge Amphibious Ready Group. The project 
designates 4G as a mission-critical requirement for the 
Counter-Piracy Task Force, which mostly operates off the Horn 
of Africa.
    Oceus Networks is also using its 4G LTE-based solution to 
support the FCC's consideration of the role of high altitude 
platforms in the national public safety network. In a trial 
this fall, we will demonstrate the role of 4G LTE in a rapidly 
deployable aerial communications architecture that can provide 
broadband communications to disaster areas shortly after the 
occurrence of a major natural disaster or terrorist attack.
    As directed by the Middle Class Tax Relief Act, the 
FirstNet network will provide much-needed nationwide broadband 
reach for first responders, including deployment milestones for 
substantial rural coverage. Our mobile LTE solution cost 
effectively extends the LTE broadband footprint to public 
safety users in remote and rural communities.
    Looking forward, policymakers are increasingly interested 
in sharing as a potential option to both enhance the effective 
and efficient spectrum use of government operations, and 
provide capacity for commercial broadband use. For new policies 
based on sharing to remain viable as a true win/win solution 
for commercial and government spectrum users, sharing must be 
viewed as a two-way street. To obtain improved economies of 
scale by adopting commercial technologies such as LTE, Federal 
users need access to commercial bands. As one aspect in a 
larger spectrum supportability tool set, this is an important 
option for government users, for whom modifying commercial 
technology to work effectively in government bands is 
expensive, time consuming, and off the commercial roadmap.
    The timing of today's hearing comes as we remember the 
tragedy of September the 11th. It underscores the importance of 
giving our soldiers and first responders interoperable 
communications as they defend our Nation. Also this week, Apple 
has announced the release of LTE-based iPhone 5, which 
demonstrates widespread adoption of the technology and U.S. 
leadership in key technologies.
    I want to thank the committee for asking the important 
question and raising awareness of how to advance commercial and 
military interests, and provide these critical advanced 
communications capabilities for our economy and our Nation's 
security.
    Thank you for the opportunity to testify at today's 
hearing, and I look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Smith follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    
    Mr. Walden. Mr. Smith, thank you. We appreciate your 
testimony and good work.
    Now we will turn to Dr. Preston Marshall, Deputy Director, 
Information Sciences Institute, University of Southern 
California, who is an advisor to the President's Council of 
Advisors on Science and Technology.
    Dr. Marshall, good to see you again. Thank you for being 
here. We look forward to your comments.

                 STATEMENT OF PRESTON MARSHALL

    Mr. Marshall. Thank you, Chairman Walden and Ranking Member 
Eshoo. I appreciate this opportunity to continue the dialogue 
we had with many of the members and staff of the spectrum 
working group. My name is Preston Marshall. I am, as you said, 
Deputy Director of Information Sciences Institutes, author of 
several books in the field, and I was the program manager for 7 
years at DARPA developing some of the wireless technology now 
being deployed in DoD, and have participated as an advisor.
    Mr. Chairman, as you have noted, spectrum sharing is not 
new. There is nothing the PCAST report has that hasn't been 
done for decades. LTE shares with LTE, cellular shares with 
other commercial users, DoD shares with DoD, DoD shares with 
other Federal agencies, Federal agencies share with civil. What 
makes PCAST report unique is that it proposes to take sharing 
out of one-on-one relationships that are unpredictable and put 
it into a framework where every American can see what spectrum 
is available for new innovation and new business opportunities. 
It proposes to take it out of one-on-one relationships between 
a cellular provider and a Federal agency, and that Federal 
agencies document all the sharing opportunities they can 
provide, publish them, and make them available for innovators. 
Someone wishing to innovate in spectrum doesn't have to worry 
that they get into the death spiral or light-squared saw or M 
to Z, or some of these other conflicts. This is a fundamentally 
different approach to sharing. It is not technologically new, 
but it makes sharing the norm. It says we are going to share 
spectrum, we are going to document what it does. It addresses 
many of the issues the GAO brought up. It provides a way for 
Federal agencies to monitorize the value of the spectrum by 
having a secondary market but a right to share Federal 
spectrum. You can measure its goal.
    We have always had a problem that Federal agencies can get 
acquisition money from Congress but not operational money. This 
is a way to bring an operational cash stream in to fund for the 
kind of offload for military systems to civil systems. It is 
appropriate. It provided a new framework at the White House for 
the spectrum management team to recognize that spectrum policy 
is fundamentally a policy decision, not just an engineering 
one, and to elevate and create and understand the tensions 
between economic opportunity and national security, and other 
Federal emissions.
    We have been criticized--the report has been criticized for 
essentially concurring in the NTIA report, and that is 
certainly true. It concurred in the general framework that 
sharing--clearing spectrum has become increasingly difficult. 
We essentially created a--certainly you don't have it in 
California, but if you grew up in New England, as a plow pushes 
against the snow, it starts out very soft and it becomes and 
turns into hard ice. Well in some cases, our Federal spectrum 
has turned into hard ice. We pushed and pushed, we compressed 
Federal users. It becomes exponentially more difficult to 
relocate them. Where it can be done, my reading of the PCAST 
report is that it was quiet. If there are ways to clear 25 
megahertz or 50 megahertz for cellular, it in no way proposes 
to stand in the way. What it does say is that our goal should 
not be 50 or 100 megahertz, it should be support massive 
innovation throughout the spectrum on an order of a gigahertz a 
spectrum. And the only way to do that is to share what is 
there. We are not going to relocate a gigahertz of Federal 
users.
    We are enabled in this by the fact that new low power 
technologies are much more sharable. When you look at the 
report from NTIA and you look at the restrictions on the use 
of, say the 3.6 gig band, you see that it is essentially 
useless for civil if you put high power LTE, but massively 
useful if you put low power devices. There is a convergence 
between where technology is going and where spectrum sharing 
can do. More power, more local communications is the way we are 
going to meet wireless needs, and spectrum sharing is 
particularly appropriate to that.
    For those who read the report and say my gosh, it is all 
different, we will have to do different things, imagine if you 
had gone to the wireless industry 10 years ago, perhaps when 
Mr. Sharkey was at QUALCOMM, and said we want you to take 
your--50 percent of your wireless business, put it over 
congested, open to everyone, shared with every device in the 
country, $100 devices, only 80 megahertz, and all of you have 
to share it, they would have laughed at you, and yet today, 
over half of our smartphone traffic runs across wifi. These are 
the opportunities for innovation. We are the first to meet 
this. We are the first to come up against this spectrum crunch. 
This is not bad, this is an opportunity to own the beach front 
innovation, and the key to that is sharing spectrum, not to 
walk away from licensed and exclusive use. I am a 
communications engineer. I know I would rather have a clear 
channel. I don't want to deal with sharing, but if the 
alternative is no spectrum at all, then this is a desirable 
path. This is an opportunity to do all of the above, continue 
the path on unlicensed and exclusive licensing, but open up 
this new opportunity for this third way which goes right down 
the middle. It draws the best from licensed use and it draws 
the best from unlicensed.
    Thank you very much.
    [The prepared statement of Mr. Marshall follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. Thank you, Dr. Marshall. We appreciate your 
comments and your good work on the PCAST report, and for 
briefing our committee before.
    We will now go to Mr. Mark Racek, Director, Spectrum Policy 
of Ericsson. So we appreciate your being here and look forward 
to your testimony. Go ahead.

                    STATEMENT OF MARK RACEK

    Mr. Racek. Thank you, Mr. Chairman, and good morning to all 
the members of the committee. My name is Mark Racek and I help 
lead the development of Ericsson's global legislative, 
regulatory, and industry positions with regard to spectrum. As 
communication changes the way we live and work, Ericsson is 
playing a key role in this evolution. Using innovation to 
empower people, business, and society, we are working towards a 
networked society in which everything that can benefit from a 
connection will have one.
    For our part, Ericsson is responsible for more than 40 
percent of the world's mobile traffic which passes through our 
networks every day serving roughly 2.5 billion subscribers, and 
we have been at this game a long time. When our company was 
founded 136 years ago, Ulysses S. Grant occupied the White 
House. With time has come experience, knowledge, and we 
believe, credibility.
    The lifeblood of the networked society is a network that is 
built on a robust mobile broadband ecosystem made possible by 
access to sufficient licensed spectrum, something that is in 
short supply and high demand.
    A market data report Ericsson released last month cited a 
doubling of global mobile data traffic from 2011 to 2012 with a 
growth forecast of 15 times that amount by 2017. Ericsson 
invests more than $5 billion annually in research and 
development, employs 22,000 R&D engineers, and holds 30,000 
patents, all in an effort to improve the capability of networks 
and increase the efficient use of spectrum. But technology 
alone won't cure the demand for capacity.
    Mr. Chairman, you and your colleagues deserve a great deal 
of praise for passing voluntary incentive auction legislation. 
While this key achievement was an important step, the question 
still remains, where can more spectrum be found?
    Federal spectrum holdings prove to be the next logical 
possibility given that Federal Government is the largest user 
of spectrum below 3 gigahertz. And the new spectrum law is 
encouraging efficiency through collaboration with industry, and 
the Federal spectrum holders. As opportunities are identified 
within the Federal Government, a determination must be made as 
to which approach will serve the solution best, spectrum 
clearing or spectrum sharing?
    Being a global leader in building networks that can operate 
in numerous spectrum ecosystems, we believe there are two key 
points to keep in mind as we answer that question.
    The first is that clearing spectrum for licensed use is 
still the best option available today. The engineering is ready 
and there is a well-established and commercial business model 
for providers to rely upon to profitably build and operate such 
systems.
    Second, while there is a lot of interest in the concept of 
spectrum sharing, I would caution policymakers from being too 
optimistic about its potential. There are a host of challenges 
to building and operating shared spectrum networks and there is 
no evidence yet that business models exist to sustain them. The 
examples of challenges come in at least four different areas. 
The first is economic potential. The value of spectrum is 
directly dependent upon the extent to which services can be 
guaranteed. There has not been sufficient testing of technology 
or economic modeling to prove that the types of services can be 
met by a system predicated on sharing. Without these 
certainties, there will be little incentive for large scale 
investment.
    Number two is the technical and commercial viability. 
Existing commercial mobile technologies have been optimized 
based upon a well-understood licensed spectrum, which has 
fueled innovation and investment. The technical requirements 
for a shared environment, on the other hand, are undefined and 
will require significant time for researching and for testing.
    Number three, the operational complexity. For sharing to 
work, carriers will need clear answers to many questions about 
operational constraints. For example, what kinds of services 
can be supported in a shared environment, or can the spectrum 
be used nationwide?
    And finally, number four, the regulatory structures. 
Sharing raises a number of regulatory challenges which will 
take years to test and model. Will shared spectrum users have 
to meet public interest requirements such as CALEA and E-911? 
Can this spectrum be auctioned? What are the interference 
protections for incumbent users?
    Taken together, I believe that an analysis including these 
four factors leads us to the conclusion that while spectrum 
sharing solutions in the right circumstances may be able to 
support licensed operation and should be further assessed, 
sharing should not be considered as a substitute for cleared, 
licensed, spectrum to meet our Nation's needs. And when met, 
those needs will yield great returns for the economy.
    The work ahead will be challenging, but our mission is 
clear: to ensure that everything that can benefit from being 
connected is connected. This will transform lives, it will 
revolutionize businesses, but more important than that, it will 
have a profound impact on our entire society. Our industry 
needs spectrum to deliver on that promise.
    Thank you, Mr. Chairman, for the invitation to be here 
today, and I look forward to answering any questions that this 
subcommittee has.
    [The prepared statement of Mr. Racek follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. Mr. Racek, thank you for your testimony and 
your work on this topic.
    And now to our final witness on today's panel, Mr. Steve 
Sharkey, who is the Director, Federal Regulatory Affairs, and 
Chief Engineering and Technology Policy for T-Mobile USA, Inc. 
Mr. Sharkey, thank you for being here. We look forward to your 
testimony.

                 STATEMENT OF STEVE B. SHARKEY

    Mr. Sharkey. Thank you. Good morning, Chairman Walden and 
Ranking Member Eshoo, and members of the subcommittee. My name 
is Steve Sharkey and I am the Director, Chief Engineering and 
Technology Policy for T-Mobile, USA. Thank you for inviting me 
to testify today.
    Mobile broadband is a significant economic driver, 
providing millions of jobs, economic opportunities for 
Americans, and billions of dollars in productivity improvements 
that help America compete in a global economy. The demand for 
mobile broadband data continues to grow at an unprecedented 
rate, and the need for additional spectrum to meet this demand 
is well-documented. The wireless industry is investing billions 
of dollars in new technologies to solve this problem by 
improving spectrum efficiency, adding cell sites, and improving 
network management practices, but it will not be enough. 
Additional spectrum must still be made available to meet 
exploding demand.
    Among bands under consideration for reallocation, the 1755 
to 1780 megahertz band stands out as uniquely suited for 
commercial use. This spectrum is immediately adjacent to 
spectrum that we use today for mobile broadband, and could be 
readily integrated with existing networks to expand services. 
The band is identified internationally and already used around 
the world for mobile broadband. Harmonized use of spectrum will 
facilitate rapid equipment development and service deployment, 
and produce economies of scale and scope that reduce the cost 
of deploying services.
    There is also broad support in the wireless industry for 
pairing the 1755 to 1780 band with spectrum currently available 
for licensing at 2155 to 2180 megahertz, which Congress 
required to be licensed by February of 2015. Pairing 1755 to 
1780 with 2155 to 2180 aligns with existing services and will 
facilitate faster deployment and maximize efficient use of the 
spectrum.
    These benefits are reflected in how the spectrum is valued. 
One study found that auctioning the 2155 to 2180 megahertz band 
by itself would yield $3.6 billion, but auctioned together with 
1755 to 1780, the band would generate $12 billion, over three 
times as much. Auctioning these bands on a paired basis will 
ensure the best economic return for taxpayers and provide the 
most efficient use for broadband services.
    NTIA released a report earlier this year describing the 
considerable challenges to making the 1755 to 1780 megahertz 
band available for commercial use, given current Federal 
operations. T-Mobile believes, however, that the assessment of 
these challenges and their costs are overly pessimistic. T-
Mobile's experience in relocating Federal users from the AWS-1 
band, which was also reallocated from Federal to commercial 
use, demonstrates that the challenges of relocation and sharing 
during a transition can be significantly overcome with dialogue 
and cooperation between Federal users and industry.
    Fortunately, several steps have now been taken that T-
Mobile believes will provide a path forward to transition the 
1755 to 1780 megahertz band from Federal to commercial use. 
First, the FCC, working with NTIA, has granted T-Mobile special 
temporary authority to explore the prospects for limited 
sharing of the band. As part of an industry effort, we have 
already begun to work with the Department of Defense to 
identify the locations at which we will monitor the use of the 
band, and are pleased with the spirit of cooperation that has 
characterized our work with the Department of Defense and 
others so far. We anticipate that preliminary results for 
monitoring and simulations will be available before the end of 
the year and will provide a foundation for field testing.
    Second, T-Mobile is participating in working groups created 
under NTIA's Commerce Spectrum Management Advisory Committee, 
or CSMAC. These working groups are a forum for exchanging 
technical and operational information between Federal entities 
and industry regarding their respective systems and the 
potential for sharing or facilitating relocation out of the 
band.
    Third, important changes to the Commercial Spectrum 
Enhancement Act, or CSEA, provide resources for government 
agencies to study relocation options and to update equipment to 
facilitate clearing or shared use of the spectrum. We are 
hopeful that these efforts, taken together, will provide a path 
forward for making the 1755 to 1780 megahertz band available on 
a primary basis for commercial broadband use, while fully 
protecting Federal operations.
    Where sharing is necessary, either through a transition 
period or indefinitely, it is important that the conditions for 
shared use are well understood and are clearly defined, and 
that substantial access for commercial operations is provided.
    Certainty regarding the extent of access to the spectrum is 
necessary to provide the incentive for carriers to make the 
very substantial investments needed to deliver world-leading, 
high quality mobile broadband services to American consumers.
    Thank you again for the opportunity to appear before you 
today. T-Mobile looks forward to continuing to work with you on 
these important and timely issues. I would be pleased to answer 
any questions you have.
    [The prepared statement of Mr. Sharkey follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Walden. Mr. Sharkey, thank you very much for your 
testimony. We appreciate that of all our panelists today. It is 
most helpful in our effort.
    I am going to start out with questions, and then of course 
we will go back and forth here on the dais.
    Mr. Goldstein, I want to start with you. You have testified 
about fundamental flaws in the way the NTIA manages Federal 
spectrum, namely, the NTIA does no independent analysis of the 
information Federal spectrum users provide or of whether those 
users need all the spectrum they have, is my understanding of 
your work. Did the NTIA fix those flaws before issuing their 
most recent estimates relied upon by PCAST in their report that 
clearing the 1755 to 1850 megahertz band would take more than 
$18 billion and 10 years?
    Mr. Goldstein. I don't believe they have fixed those flaws 
yet, Mr. Chairman. The system I am talking about, which is 
called the Government Master File, which NTIA used to record 
the information that agencies send them on spectrum, is still 
being used today and won't be replaced for at least 6 years.
    Mr. Walden. All right, thank you.
    Mr. Sharkey, Mr. Racek, Mr. Goldstein's written testimony 
points out that Federal users will have a low tolerance for 
even the possibility of interference, which seems logical. 
Private sector, however, will be reluctant to invest 
significant capital in spectrum network equipment or devices if 
it doesn't have greater assurances that it will be able to use 
the spectrum it pays for when and how it needs to, that 
certainty piece that you were speaking of. Isn't this precisely 
why we should continue to emphasize clearing over sharing as 
our main strategy, not our singular strategy, but our main 
strategy if we are going to meet the spiraling demand for 
wireless broadband? Mr. Sharkey, Mr. Racek?
    Mr. Sharkey. Thank you, yes. You know, I think it is 
important to stay focused on relocation and clearing as much as 
possible, and there are a variety of different uses in the 1755 
to 1780 megahertz band, and the NTIA report makes it clear that 
a number of those can be cleared in a more accelerated time, 
within five years. There are a number of systems where it is 
likely to take longer or be more costly to move those, and that 
is where we are focusing our efforts to try and look at sharing 
options that would be limited geographically or by time.
    Mr. Walden. All right. Mr. Racek?
    Mr. Racek. Thank you, Mr. Chairman. The exclusive and 
dedicated globally allocated spectrum below 3 gigahertz is what 
we feel is necessary to be able to provide the regulatory 
certainty that is needed to be able to continue the investment 
and the innovation that has been done within the industry. So 
what we would like to see is a continuation of that. There is--
part of the problem is with unlicensed type of spectrum that 
you get a level of uncertainty. It is ad hoc. It is definitely 
viewed as something that could be seen as a complement to 
licensed type of spectrum, but based upon its regulatory 
uncertainty it will not be the preferred methodology.
    Mr. Walden. All right, thank you, Mr. Racek.
    Major General Wheeler, Mr. Goldstein notes in his written 
testimony that the Federal users ``often use and rely on older 
technology that is not conducive to operate as efficiently or 
flexibly as state-of-the-art technologies may allow.'' The 
Commercial Spectrum Enhancement Act, or CSEA, which we made 
even better in the spectrum legislation as noted by my friend, 
Mr. Waxman, provides a mechanism to upgrade Federal facilities 
with private sector funding during the relocation process. 
Don't we have an opportunity here to help agencies better meet 
their missions in a fiscally challenged climate while 
simultaneously freeing spectrum for commercial broadband?
    Mr. Wheeler. I think there are some opportunities there in 
this particular area, sir, but I also understand that if you 
take a look at, for example, the satellite systems that are 
already up there in space right now with a single receiver or 
transmitter, the opportunity to change those out without 
significant costs and time, if you will, to put up a new 
satellite system, for example, is an example of where that area 
won't work very well, and just the mass numbers of specific 
systems that we have. For example, if you were going to use the 
ACT system we talked about, which is the combat training system 
we discussed, that particular technology, there is no 
commercial variant of that particular one available, and that 
is in all of our airplanes, to include, for example, now 
internally to all of our Stealth airplanes, the F-35 and the F-
22.
    So there are examples of where that can work very well, and 
there are examples of where that doesn't have an applicability 
to that specific system.
    Mr. Walden. All right, thank you.
    Mr. Racek, Mr. Sharkey, in the past 5 years we have seen 
two other significant attempts at sharing. The 700 megahertz D 
block failed to garner a winning bid because commercial 
providers were reluctant to pay for a spectrum they would need 
to share with public safety officials, the way that one was 
structured. Nearly 4 years after the FCC white spaces order, 
there are very few takers willing to or able to build a 
business around unlicensed devices in the TV broadcast band. Is 
there any reason to believe commercial providers would be more 
willing to spend money under the PCAST approach? You are 
representing the commercial side, what do you think?
    Mr. Sharkey. I think both of those examples are good 
examples of the need to have substantial access for commercial 
services in cleared spectrum and certainty about what is 
available. The problem with both of them was that 700 
megahertz, there was no certainty about what would be available 
for commercial use at the end of the day and what that use 
would cost, so you were asked to pay a high cost up front with 
no certainty on the back end about what you were getting.
    Mr. Walden. All right.
    Mr. Sharkey. And on the TV white space, there was 
availability in very rural areas, but the top markets had 
little to no spectrum available.
    Mr. Walden. All right, Mr. Racek, very quickly if you can?
    Mr. Racek. Yes, the--I think the difficulty is that 
sometimes the answer comes actually before the definition of 
the problem in sort of the TV white spaces that the trying to 
be able to utilize that to be able to provide the type of 
services that you see that are being used by the tablets and 
the iPhones and those sort of type of things needs a certain 
type of service level, some guaranteed type of service level. 
Unfortunately, some of the solutions that you are talking about 
actually haven't considered that. There are some--especially 
like when it comes to TV white spaces, the ability to gain 
access to spectrum is going to be limited, mostly to rural 
types of environments, but where you actually need the capacity 
is going to be in the urban type of environment. So it is sort 
of providing a solution, but not addressing sort of the needs 
of the commercial industry.
    Mr. Walden. All right, thank you very much. My time is more 
than expired.
    I will turn now to the ranking member of the subcommittee, 
Ms. Eshoo, for questions.
    Ms. Eshoo. Thank you, Mr. Chairman, and first I would like 
to ask unanimous consent that the letter to the committee from 
the Competitive Carriers Association be made part of the 
record.
    Mr. Walden. Without objection.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Eshoo. Thank you, Mr. Chairman.
    First of all, thank you to each one of you. I think that 
this has been an exciting panel, and you all come at this from 
different ways, which is not a surprise, but it is instructive 
to us.
    I would like to start with Dr. Marshall. The Majority has 
concerns that the PCAST approach is ``too speculative'' to be 
the focus of the committee's spectrum strategy. Do you agree 
with this assertion? And I also have another question, and that 
is the PCAST report places a particular emphasis on spectrum 
bands over 2 gigahertz. Are there ways in which these higher 
bands of spectrum could be used by wireless carriers to fill in 
gaps in coverage or provide additional capacity in dense urban 
areas? You just heard Mr. Racek and Mr. Sharkey speak about 
certainty and that the service or the outcomes would apply to 
areas that--where we won't be able to optimize what we are 
looking for. So if you could just give the briefest and the 
best answer, OK? Thank you.
    Mr. Marshall. I think Mr. Chairman himself noted the TV 
white space has been out there for 3 years. It is a 
particularly unattractive spectrum option, but it did develop a 
technology base that the PCAST builds on. It does not build on 
the cognitive radio, many of the innovative and new ideas that 
are flowing. Those will make it better, but its basic 
deployment is the 3-year-old TV white space that otherwise has 
not had a lot of commercial uptake.
    I would certainly look at the spectrum that is made free 
not as filling gaps in coverage, but filling gaps in capacity. 
What we face is not a coverage shortfall--if I can go and get 
those little maps that cellular providers give and they are all 
colored whatever color is supposed to be good. The issue we 
have is capacity, and for that higher frequency, short range, 
low power, like the wifi offload, is in fact what the carriers 
need to meet 50 times more capacity.
    So I think we have to look at two strategies in wireless. 
One is coverage, and very clearly the licensed spectrum has 
allowed that to happen. When we talk about dense areas and 
urban, we get the opposite effect of the previous witness. 
Instead of--whereas TV is built where people are, much of the 
military is where people aren't or where they don't want them. 
And so here we have the opportunity to have the reverse to the 
TV white space experience. He can keep all the spectrum he 
wants in the Mojave Desert, and we take it in New York. He 
keeps his peak allocation, which is what he needs to do his 
job, and we can provide lots of offload capacity, much better 
than wifi. And very clearly, industry is willing to invest in 
that because you can't go 2 weeks without seeing a press 
release of one major provider of Internet saying we are rolling 
out lots of wifi. And there is no spectrum less predictable and 
less desirable than wifi. And even so, it is attracting 
incredible investments. Think what a gigahertz could do.
    Ms. Eshoo. Thank you very, very much.
    I am interested--and I don't know what witness wants to 
speak to this, but what is the global picture on this? Do we 
use--do our Federal agencies use more spectrum than other 
countries? I mean, we are larger and far more sophisticated, I 
believe, but are there any lessons that we can learn from 
others in what they are doing? I just don't know what the 
answer to that is. Does anyone? Mr. Racek?
    Mr. Racek. Thank you, Chairwoman Eshoo.
    Ms. Eshoo. Thank you for calling me Chairman. That is very 
nice. I will remember that.
    Mr. Racek. Congresswoman Eshoo.
    Ms. Eshoo. You are my new best friend.
    Mr. Racek. I could take a little bit of a stab at that, and 
that is that the--Ericsson is very involved in standardization 
type of activities with respect to 3G PP, which is the Third 
Generation Partnership Program, and in that standardization 
development activity is where technologies like LTE that you 
have heard talked about are being developed. And one of the 
ways that they sort of develop the technology is by identifying 
bands, and then identifying the technology around that band.
    Ms. Eshoo. And you are doing this globally?
    Mr. Racek. Yes, this is a global standards development 
organization, and the difficultly, though, is that the bands 
that are--sometimes that are identified seem to have more 
difficulty in actually being identified in the U.S. versus 
other countries.
    Ms. Eshoo. I see.
    Mr. Racek. So it makes that in the U.S., oftentimes we end 
out having sort of unique solutions, and we try to work with 
the incumbents, work with the various regulators in each one of 
the countries to come up with as unified a position as we 
possibly can. And this is particularly for the 1755 to 1780. 
Originally in 3G PP, the band that is now called AWS-1 actually 
extended all the way up to 1780 megahertz. This is one of the 
reasons why 1755 is--to 1780 is so important is because it 
extends the band that we would have in the U.S. to be more in 
line with what the other regions may actually be able to 
allocate. So it has some alignment, at least regionally.
    Ms. Eshoo. General Wheeler, would you like to comment? 
Thank you, Mr. Chairman.
    Mr. Wheeler. Ranking Member Eshoo, the one thing I would 
add is from a--let us say, a Department of Defense perspective. 
They are watching how other militaries in the world--they come 
to us because they can't get spectrum in their country. So for 
example, doing the training they do, our allies come to us 
before they deploy forward. When they are going to be our 
partners in Afghanistan, they come to the U.S., for example, 
and go out to that Mojave Desert area that we just discussed 
and we actually do the training out there because the frequency 
is available there and they can get that ``best training in the 
world,'' not just for spectrum, but because of the air space 
out there as well. So that becomes a big part of why they are 
so partnered with us, because we have the tools available to 
make them better and keep them safe in combat. And that is one 
of the areas, and that area that we are talking about, the 1755 
to 1850 is where in other countries they use it for other 
purposes out there.
    The other part is we are the only country with a large 
number of UAS's. The unmanned aerial vehicles, we have a ton of 
those particular types of things, and it has grown 
astronomically----
    Ms. Eshoo. It has.
    Mr. Wheeler [continuing]. In the last 10 years, and that is 
an area where--that we, again, fall into that particular 
spectrum.
    Ms. Eshoo. Thank you. Thank you, Mr. Chairman.
    Mr. Terry [presiding]. Sure, thank you.
    Sticking a little bit with General Wheeler and Mr. 
Goldstein, some commenters--we have actually had some people 
that have come to our office and presented the sharing option 
with the carrot approach, i.e., Department of Defense can share 
some of their spectrum with private sector companies and would 
be able to lease that spectrum, therefore, being a source of 
revenue for the Department of Defense or a particular agency 
government. Does that type of carrot approach resolve some of 
the issues with sharing? Have you looked into that type of a 
proposal?
    Mr. Goldstein. We haven't specifically at that, 
Congressman, we have looked more broadly at sharing. A couple 
things that I think respond, well, that may be possible. One of 
the things we have found in our review in talking to really 
dozens of industry stakeholders is that there is not simply a 
lot of sharing going on between the public and the private 
sector. Most of the people we talked to couldn't really name 
more than one or two, and they are very well-known examples, 
and it is because the business model essentially does not work 
because of the uncertainty involved and frankly, the faith in 
technology--the leap of faith that is still required in many 
ways to get us there.
    So it is something that can happen, I think, at the 
margins, but I think many of the challenges that were talked 
about in our testimony are going to exist for some time to 
come.
    Mr. Terry. All right. General Wheeler, what is your 
thoughts or the Department of Defense's thoughts on sharing, 
but you control--in essence, you become the lessor under 
certain conditions. Is that something that is appetizing?
    Mr. Wheeler. It is an interesting concept, sir. What I 
would argue here is we are interested in sharing because we 
think that is a quicker way to vacate areas that you need, if 
you will. So in other words, to share would be an area to get 
availability of a set amount of spectrum, so we are looking at 
that from that perspective. The incentivizing, you know, I have 
a whole teams that works this and I put, actually, a lot of 
extra people on that. In fact, I pretty much dried up all the 
spectrum knowledgeable people within DoD to work on these 
particular parts, and the incentive for them is they believe 
that the economy is paramount so they really do force and work 
towards this. When you talk about a leasing aspect, we don't 
physically own the spectrum----
    Mr. Terry. Right.
    Mr. Wheeler [continuing]. So we don't have that ownership 
of the said spectrum. So while I think an incentivizing model 
would be useful to DoD to move things out of there from a 
monetary perspective, I don't think it will make it move any 
faster from the perspective because our folks are working very 
hard and fast to try to find solutions to it to make sure that 
we can do that to make sure that we are following through on 
the President's desire for the 500 megahertz.
    Mr. Terry. If sharing is possible, more through some of the 
regulatory aspects that have been raised here by your 
testimony, I wonder, though, are there any security 
implications? Is there ways to protect secret classified 
information if you are sharing the same spectrum?
    Mr. Wheeler. That is a good question, sir. I think I am 
going to go back to what Ranking Member Eshoo started in her 
opening statement where she talked about it is not just the 
sharing or the vacating, but I think it is going to be--in some 
cases, it is going to be actually vacating or relocating to a 
different location. I think there is also going to be sharing 
in some aspects, especially if you want to do this in a shorter 
period of time. I also think there are going to be some 
technologies out there that will make us use our areas more 
efficiently within the area that we are given. In other words, 
it is going to be that basket, if you will, of ways of 
approaching this to get us moving in the right direction 
quicker. But there are methodologies to protect the security in 
most aspects, and where we can't, we will vacate and move 
forward and have to go with those particular types of 
approaches. But we have that thought through pretty well.
    Mr. Terry. General Wheeler seems more optimistic on the 
abilities to do this than you did, Mr. Racek. What do you 
think?
    Mr. Racek. Thank you. The--I think if we look at the 3550 
to 3650 band--and this was one of the bands that was identified 
earlier by Mr. Karl Nebbia, NTIA, and this is one of the bands 
that could possible be made used for commercial types of 
services. And as we have heard before, though, is that there 
was a recognition that this spectrum could not be used for LTE 
high-powered types of systems. Well, this is typical where you 
actually sort of identify well yes, this spectrum could be 
shared but with sort of further identification, you understand 
well, there are going to be substantial limitations to its 
availability, and therefore, you start to question whether that 
spectrum could actually be used for the purposes that you had 
in mind.
    Mr. Terry. Thank you. My time has ceased.
    Ms. Matsui, you are recognized for your 5 minutes. Thank 
you.
    Ms. Matsui. Thank you very much, Mr. Chairman.
    I have a question for Mr. Sharkey. We know that the FCC has 
less than 3 years to auction and license the 2155 to 2180 band, 
and we know that the 1755 to 1780 band is an ideal pairing 
opportunity. How important is it to move forward and find a 
solution in a timely manner to get this spectrum out there?
    Mr. Sharkey. We think it is very important to move forward 
quickly and make it available, and we think that it is doable. 
We have a very good process in place now between the CSMAC 
working groups and the work that we are doing with DoD to 
really get the right people in the room that can dig down into 
the technologies and figure out the complexities around 
sharing.
    Ms. Matsui. OK, and how long do you anticipate the industry 
testing will last, and given we need to pair it with the 2155 
to 2180 band in a timely manner?
    Mr. Sharkey. The--as I said in my earlier testimony, we 
expect to have some preliminary information from monitoring and 
some simulation work before the end of the year. That will lay 
the foundation for additional testing. We hope to have a good 
picture of what we can do moving forward early into next year, 
and then that can be refined as the overall regulatory process 
moves forward.
    Ms. Matsui. OK, thank you.
    Mr. Nebbia, given that the FCC has less than 3 years to 
pair the AWS-3 band, do you believe the industry and the 
agencies are working cooperatively to ensure the 1755 to 1780 
band will be made available for pairing with AWS-3 in the next 
3 years?
    Mr. Nebbia. Certainly we have been encouraged by the 
cooperation that is going on between government and industry. 
As was said earlier, I believe, by Congressman Waxman the 
amount of information that is being passed back and forth is 
unprecedented and I believe we can, in fact, conclude on this 
range of spectrum in a timely manner. So we are very hopeful. 
We see a lot of great work going on.
    Ms. Matsui. OK, so that is great.
    Mr. Racek and Dr. Marshall, as we explore each band for 
potential repurposing, which specific bands will be ideal to 
clear below 3 gigahertz and which specific bands or areas will 
be better suited for sharing above 3 gigahertz? I really would 
like you to be specific. Mr. Racek?
    Mr. Racek. Thank you. We would like to actually come back 
with you and provide some additional information. I do have 
some examples to give. We don't have with me sort of an all-
inclusive list of all of the bands that we think would be 
applicable for clearing below 3 gigahertz. If I can give you an 
example, the one is that we have talked about substantially and 
that is the 1755 to 1850. The other one happens to be the 2.7 
to 2.9 gigahertz band. This is the band that was also 
identified in the PCAST report, but it was a band that was 
identified by NTIA some time ago in one of its analyses as a 
possible band that could be reviewed--could be analyzed for the 
purpose of commercial usage. We are very supportive of that 
band; we have been for quite a while. We operate in this 
International Telecommunications Union, and in that process, 
you know, we have talked to other regulators in other countries 
and found that this spectrum would be available in other 
countries, and feel like this could be something useful for the 
U.S.
    Now, for sharing above the 3 gigahertz, I think one of the 
things that probably would be useful to identify is that in the 
sharing opportunity, it isn't just about sort of unlicensed. 
For our view, unlicensed definitely has its benefits. It has 
already been talked about sort of an offloading perspective, 
but it does bring uncertainty and we are very interested in 
sort of achieving economies of scale. And so our approach is as 
more of a licensed shared access, either on a co-primary or a 
secondary type of basis.
    Ms. Matsui. OK.
    Mr. Racek. And we see that sort of being above 3 gigahertz. 
And the work that is being done within the 5 gigahertz, the 195 
megahertz is the right step, but sort of a licensed approach is 
the step we would support.
    Ms. Matsui. OK. Dr. Marshall, do you have the specific 
bands that are ideal below 3 gigahertz, and specific bands 
above--I mean, for sharing above?
    Mr. Marshall. OK. I think the industry--most over 1755. 
That was an incomplete action from--it was a political 
compromise from AWS-1, and like all compromises, it gets 
revisited. I think I am really enthused about the opportunity 
in 3.6, not just because it is spectrum that is available, but 
it does fit this new class of license that PCAST proposes, 
which is to provide certainty of access to the industry 
partners, lets them acquire it, doesn't take it away from DoD, 
and labels them to meet their emission but still gives them the 
certainty of access and premise of access for a certain--a 
large amount of that spectrum. Very clearly we are putting a 
lot of traffic off onto wifi. Wifi is very inadequate compared 
to spectrum with certainty, so I think here is an opportunity 
to provide industry what it wants, which is certainty of 
access, along with sharing of Federal bands and not damaging 
the Federal emission.
    Ms. Matsui. OK, thank you very much. I see I have been over 
my time.
    Mr. Terry. Gentleman from Florida, Mr. Stearns, is 
recognized for your 5 minutes.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Nebbia, when Federal users were relocated from the AWS-
1 band so that those bands could be auctioned for commercial 
use, CBO estimated that DoD's relocation costs would exceed $4 
billion. By the time the auction occurred, the OMB approved 
relocation cost for DoD dropped to less than $400 million. 
Given that track record, shouldn't we consider NTIA's $18 
billion estimated for relocating Federal users from the 1755 to 
1850 bands as merely a starting point for serious discussions 
about relocation costs?
    Mr. Nebbia. Well certainly we have used that as a starting 
place, and it has, in fact, helped us to begin the 
communications and discussions regarding that particular band. 
The 1710 to 1755 band doesn't act as a terrific example in all 
cases, but for instance, the agencies first supplied estimates 
of about $2.1 billion, and in that case later was adjusted to 
around $900 million, and now we are back up to about $1.5 
billion. So we do realize there is some fluid activity, and 
certainly as we look at what systems we do not have to move out 
of the band, obviously that will have an impact on the cost.
    Mr. Stearns. Mr. Sharkey, based upon T-Mobile's experience 
with the AWS-1 relocation, would you care to comment?
    Mr. Sharkey. I think it is an excellent question that, you 
know, the costs came down significantly from initial estimates, 
and it is important to go back and----
    Mr. Stearns. Four billion to four hundred million?
    Mr. Sharkey. So it is very important to go back and make 
sure that the costs are as accurate as possible. You know, I 
think like Karl noted, some of the work that we are doing now 
to look at sharing and transition issues and how to facilitate 
transition out of a band, I think will significantly impact any 
relocation costs for moving out of the band.
    Mr. Stearns. OK. Mr. Marshall, you state in your testimony 
that ``if bands can be cleared and auctioned with exclusive 
licensing,'' you ``believe the PCAST recommendations in no way 
preclude that.'' Does this mean that you agree with the 
statement of Genachowski, the chairman, and many commercial 
entities that while spectrum sharing should be explored, it 
should not come at the expense of clearing?
    Mr. Marshall. I think the argument in PCAST is you are 
going to have difficulty clearing. To the extent that argument 
doesn't hold out, then certainly clearing is a desirable 
option. No electrical engineer could possibly get up and say 
they wouldn't want cleared spectrum over shared spectrum, so it 
is an absolute truth.
    The question is the pragmatic issues that get in the way of 
it, not the theoretic.
    Mr. Stearns. OK. Mr. Sharkey, getting back to you. As you 
know, I have worked with Congresswoman Matsui to specifically 
reallocate and auction the 1755 to 1780 megahertz band for 
commercial use. Can you explain why this band is of particular 
value to the industry, and why NTIA should look at this band 
individually instead of the entire 1755 to 1850 megahertz band?
    Mr. Sharkey. The 1755 to 1780 is really unique in that it 
is used around the world for mobile services, so use would be 
harmonized with other commercial services. It is immediately 
adjacent to our AWS-1 band, so we can add on to what we are 
already using, expand services very quickly. So it is--and we 
have got spectrum that is paired with it--can be paired with 
it, 2155 to 2180. That spectrum is available now. It has been 
available for a long time, and now has a clock ticking of 
February, 2015, where that must be auctioned.
    So this really is a unique opportunity that we need to move 
on very quickly, and I think, you know, one of the--one thing 
to keep in mind, too, with having it licensed by 2015, that 
doesn't mean that government users would have to be off the 
band by 2015, but that there is a transition process that has 
been identified.
    Mr. Stearns. Good point. General Wheeler, with the 
assumption that relocation involving the bands between 1755 and 
1850 megahertz is coming, what percentage of current Federal 
operations could be delivered or accomplished in bands above 
the 3 gigahertz?
    Mr. Wheeler. Before I answer that, sir, if I may clarify 
the last part, that might help illuminate a little bit there in 
a discussion about the costs in the 1710 to the 1755. That 
particular study was done for a larger area of spectrum, and 
then when there was an agreement to only do the last 45 
megahertz there, that price came down significantly in that 
aspect there. For DoD perspective, we ended up retuning, 
basically, many of our systems out of the 1710 to 1755 
megahertz into the 1755 to 1850. So we just finished that this 
year, in fact, and we moved some of our systems out of there 
into this other band that we are now looking at. So that is the 
reason why the cost came down, from a DoD perspective, because 
it was a smaller area than was originally looked at, so we 
didn't have to vacate and we were able to tune many of those 
systems just into the adjacent band, which happened to be the 
1755 to 1850 and. So that is what created some of those 
specific issues that made the differences in the cost.
    Mr. Stearns. Thank you, Mr. Chairman.
    Mr. Terry. Thank you, Mr. Stearns.
    Gentlelady from Colorado, the list that I was provided had 
you next. Gentlelady from Colorado is now recognized for 5 
minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    First of all, I want to thank the chairman and Ms. Eshoo 
for appointing me to the Federal spectrum working group. I have 
really enjoyed the entire process and learned a lot.
    I just want to ask a couple of questions. I want to start 
with you, Dr. Marshall. I want you to comment about whether 
there is a standard to measure efficiency in spectrum use?
    Mr. Marshall. There is a very engineering one of bits per 
hertz that gets misapplied horribly that becomes the Holy Grail 
to people. The PCAST report proposes that we should really 
measure spectrum reuse, not spectrum use.
    Ms. DeGette. You need to speak into the microphone from 
this angle over here. I can't hear everything.
    Mr. Marshall. The PCAST report proposes that we should 
really be measuring spectrum reuse. If I use a lot of spectrum 
but 100 people can use it over and over again, then that is 
much more valuable than one person using it once, and that that 
should become the objective of Federal systems, not so much to 
optimize the signal, but to optimize how many signals sit in 
the spectrum.
    Ms. DeGette. But there is no--what you are saying is that 
there is no agreed upon standard that is used right now, just 
the standard that is proposed?
    Mr. Marshall. Only what someone wants to prove.
    Ms. DeGette. How can concepts of efficiency be used to 
distinguish a measure of actual spectrum use between commercial 
and Federal users? Does PCAST talk about that?
    Mr. Marshall. PCAST proposed that the SMT propose a set of 
metrics that probably look a little different than what NTIA 
would do. For example, we might want to measure Federal 
spectrum usage as a function of POP, so we don't charge a lot 
of federals bucks when they use it in Mojave, but we charge 
them a lot when they use it in New York. And so we clearly want 
to measure the opportunity costs associated with Federal 
spectrum use, not the use itself. And that, I think, was the 
key to that appendix.
    What is the opportunity that Federal spectrum usage is 
taking away from the civil sector and being able to either 
share the spectrum or lease it?
    Ms. DeGette. And let me talk about that a little bit, 
because I think that is one of the questions. Everybody makes 
allegations that both commercial and Federal users are sitting 
on spectrum, but there is no agreed upon way to monitor how we 
build it out, how we deploy it in daily use, who is using it, 
and we talk a lot in particular about the Federal spectrum 
about how it is just sitting there. I want to know, after 
listening to this panel testify today, what incentives actually 
exist for a commercial site to use spectrum effectively?
    Mr. Marshall. Well, I think you have to ask----
    Mr. Sharkey. So I can answer----
    Ms. DeGette. Feel free.
    Mr. Sharkey. I think there is tremendous incentives to use 
spectrum efficiently on the commercial side, and we do invest 
billions of dollars to use it efficiently.
    Ms. DeGette. So what are those incentives?
    Mr. Sharkey. They are--as the FCC has moved to auctioning 
spectrum, there are financial incentives through auctions that 
cost us a lot of money to obtain new spectrum. Obviously, the 
more customers we can serve and the more information we can 
provide them or data we can provide, the more money we can make 
by serving a larger base of customers.
    Dr. Marshall's comment about measuring reuse and the 
ability to reuse frequencies as part of the efficiency, we--the 
technologies that we are implementing today reuse the same 
frequency everywhere. So where previous technologies would only 
reuse it--a particular slice of frequency every so often, new 
technologies use this entire spectrum we have available every 
place.
    Ms. DeGette. OK. Mr. Goldstein, I wanted to ask you, some 
people have said that the GAO should take a greater role in 
investigating the Federal agency's spectrum use. Does the GAO 
have the resources and expertise to conduct this type of 
analysis?
    Mr. Goldstein. We were talking about this the other day. We 
think maybe the best way to do this is getting the postal 
service to do it. They pass every house and every building in 
America. GAO would not have----
    Ms. DeGette. Assuming the postal service is still around.
    Mr. Goldstein. Exactly.
    Ms. DeGette. So seriously, does the GAO have the resources 
to conduct these types of analyses?
    Mr. Goldstein. I think it would be a tall order to ask 
almost anyone to be able to inventory Federal spectrum usage at 
this point in time.
    Ms. DeGette. So your answer is no?
    Mr. Goldstein. That is correct.
    Ms. DeGette. Is there anybody who could do it at all?
    Mr. Goldstein. I don't know. We have not looked at that. I 
can certainly talk with staff and get back to you----
    Ms. DeGette. It would seem to me----
    Mr. Goldstein [continuing]. And see whether we have any 
suggestions for you.
    Ms. DeGette. If we are trying to figure out where the 
spectrum is, it might be helpful to have that.
    Mr. Goldstein. Of course.
    Ms. DeGette. Thank you very much, Mr. Chairman.
    Mr. Terry. Thank you. The gentleman from Illinois is 
recognized for his 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman. It is great to have 
you all here. It is great testimony. It is a great debate, and 
timely and needed.
    Mr. Chairman, first I want to seek unanimous consent to 
enter into the record a letter from CTIA, the Wireless 
Association, Information Technology Industry, High Tech 
Spectrum Coalition, TIA, the Wireless Broadband Coalition, the 
Consumer Electronics Association, 4G America, urging the 
government to make more licensed, paired spectrum available. 
And I do this because then I go to----
    Mr. Terry. Without objection.
    [The information follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Shimkus. Mr. Racek, do you think shifting emphasis 
toward the PCAST approach is more or less likely than clearing 
to help make such spectrum available? What does your crystal 
ball say?
    Mr. Sharkey. I think that there are still a lot of 
opportunities that exist to clear spectrum and make it more 
fully available. Certainly we are open to sharing and the 
conditions around sharing will depend on, you know, the 
specifics. It is not an easy process, and it is, you know, it 
really is a process where the parties need to sit down and 
understand and make sure that you are not going to interfere 
with the other user, which is the process that we are going 
through in 1755 right now. A broader sharing that is, I think, 
at least out of the PCAST report, has been largely portrayed of 
a database that allows free use, I think, you know, doesn't 
provide the kind of certainty that we need to provide a 
commercial service. You know, there does need to be substantial 
access to spectrum to be able to provide a reliable commercial 
service.
    Mr. Shimkus. Mr. Racek?
    Mr. Racek. Could you go ahead and repeat the question?
    Mr. Shimkus. The point I was making was do you think 
shifting emphasis towards the PCAST approach is more or less 
likely than clearing--to clearing spectrum to help make such 
spectrum available?
    Mr. Racek. I think that the type of services that the 
licensed spectrum provide is real time type of services. These 
are services that are statutorily mandated by the FCC. These 
are CALEA, this is e-911, you know, these are--there is a 
quality of service that is guaranteed on this spectrum. Those 
are the type of services that are currently in use. The types 
of services that we see for a licensed shared environment or a 
spectrum sharing environment, those are sort of like 
complementary to providing support for licensed type of 
operation. So you could see that as more of a best effort type 
of services, very good for sort of offloading, but it is an 
offloading of a licensed type of network.
    Mr. Shimkus. And I appreciate Dr. Marshall's comment. 
Obviously being with PCAST, but as an engineer, you know that 
having it is better than sharing it. And for the private 
sector, their real testimony is they don't want to blow and 
lose capital, and they have got to have consumers and they want 
to maximize the potential of that spectrum use. I mean, it is a 
great capitalist debate of how to best get the max use out of a 
spectrum is give it to the private sector and see if they can 
turn a profit by maximizing use in that area.
    But we have a history--I mean, we have history of sharing, 
or at least what happens to the economics of it, and the D 
block does talk about any takers. We also--and so the other 
question I have is--and sometimes we do this. I don't like to 
compare United States with what Europe is doing and what other 
folks are doing, because we are so big and all that stuff. But 
can anyone tell me of any other country that is in the high 
tech arena, like maybe in Asia, Japan, Korea, South Korea, 
Europe? Has anyone talked about shared spectrum and the like, 
and does the PCAST report--you look like you are interested in 
answering this.
    Mr. Marshall. Yes, in the EU Spectrum Management 
Conference, which the community just had, they actually got up 
and said if they don't get ahead of America, they will be in 
the dust. I think we have started a race to see who develops 
the technology that uses shared spectrum, because it is the 
next big sweet spot. There is some spectrum probably left over 
as Steve describes, but we are going to move to an era where 
this is the next--just like you moved out of the suburbs into 
further land, and after you did the plains you went to a little 
bit rockier soil because that was the only land available to 
farm. This is the place to farm for innovation, and I think the 
EU sees that opportunity as one they want to get ahead of us 
on.
    Mr. Shimkus. In my last second, what examples do we have of 
spectrum sharing right now by Federal agencies, and the 
difficulties or challenges that have been faced?
    Mr. Nebbia. There is a great deal of sharing that already 
goes on among the Federal agencies, day in and day out. Few 
Federal assignments are exclusive types of assignments, but at 
the same time, we also share with a number of nonfederal uses. 
We share with wifi, we share with a system called Low Jack that 
we use to find stolen cars, we share with medical telemetry, 
public safety, land mobile satellite systems operated by the 
nonfederal side, amateurs. Almost every weekend, Federal 
spectrum is used by the broadcasting community to transmit 
signals related to sporting events that you are watching on TV. 
Weekend activities are a nice way to share. So that goes on all 
the time. The government has actually been operating in the TV 
white spaces for years, doing DoD training in those gaps 
between the broadcasters.
    Mr. Shimkus. Thank you, Mr. Chairman. Thank you.
    Mr. Walden. Thank you. Now I turn to Dr. Christensen for 5 
minutes for questions.
    Mrs. Christensen. Thank you, Mr. Chairman, and thank you 
for this hearing. It has been very informative.
    I want to go back so I understand about the costs and the 
time frames. That March, 2012, NTIA report on the potential for 
clearing and reallocation of the 1755 to 1850 megahertz band 
indicates that the--indicated that the full relocation would 
take up to 10 years and cost maybe $18 billion, and those 
projections, as we discussed already, were provided by Federal 
spectrum users. As the government and the commercial providers 
are like endeavors to find a solution to access this spectrum, 
are we still--in light of the response, and I believe it was in 
response to the question by Chairman Stearns and some comments 
by General Wheeler, are we continuing to rely on that data?
    Mr. Nebbia. Congresswoman, that data is our starting point 
for the discussions we have been having. Certainly as we find 
ways to share the spectrum and we find opportunities where 
maybe some of those systems do not have to be moved, we will 
certainly see some of those numbers change. As we get closer to 
any auction process, there will be another review of that under 
the CSEA.
    Mrs. Christensen. And I believe GAO recommended that NTIA 
reevaluate your approach to validating the agency-reported 
data. How do agencies get--derive that data? What are you doing 
to assess and scrutinize them to getting a more accurate 
assessment, and to gain a better understanding of the costs to 
reallocate Federal spectrum users and to tighten the timeframes 
for vacating?
    Mr. Nebbia. Well first of all, I think it is important to 
recognize that, for instance, in the cell phone community, the 
people that are organizing that spectrum space have base 
stations, they have handsets, and they have backhaul. In the 
government, we have got satellite systems, we have got sensing 
systems, we have got military tactical systems, and with the 
great number of different operations that we have, we simply 
have to rely on the experts in those systems to look at their 
uses and needs and to project the kind of costs that they will 
have to relocate and the time to relocate. That simply can't be 
determined by our spectrum staff.
    Mrs. Christensen. OK, thank you.
    Mr. Sharkey, Mr. Marshall has testified that wifi 
offloading is ``providing more capacity per megahertz than a 
dedicated cellular spectrum.'' Is offloading broadband traffic 
on wifi an acceptable alternative to commercial wireless 
providers?
    Mr. Sharkey. It is not an acceptable alternative, but we do 
offload a lot of traffic onto wifi systems, and I think all the 
carriers now do that. Our devices can be set so that they 
prefer to be on a wifi network as a way to move traffic off of 
the broadband mobile network. However, you know, the 
projections that we see about growth of data on the broadband 
network are on the broadband network. When we report numbers 
about how much data our devices use, they don't include the 
data that has been offloaded onto wifi networks, so the growth 
that we see continues to impact the broader mobile network 
which provides highly reliable services wherever people are. 
And we, you know, we need dedicated spectrum that will continue 
to meet that demand and that growth, and at the same time, we 
are always interested and always moving to implement new 
technologies and techniques to minimize the impact of that 
growth.
    Mrs. Christensen. Thank you. I wanted to get that question 
in, and maybe I would go back to Mr. Goldstein to go back to my 
first question and your recommendation that NTIA reevaluate how 
they validate the agency's assessment of costs, and if you 
wanted to add anything to what Mr. Nebbia said about the 
difficulty in doing that and meeting that recommendation?
    Mr. Goldstein. Ma'am, it is a very critical part of what 
has to happen, because whether we are talking about clearing 
space or whether we are talking about sharing spectrum, it is 
impossible to really figure out how to do this effectively if 
we don't know who is using what space, what spectrum. And in 
our analysis of use last year, we did a survey of all the Iraq 
members, and we found that many of them told us that they made 
many errors in assignments when they went back and looked, and 
for those agencies that actually did sample surveys or site 
visits to help them determine the accuracy of the information 
that they were providing to NTIA, much of the information that 
they provided they recognized was in error.
    Mrs. Christensen. OK. Thank you, Mr. Chairman. I think I 
will just yield back.
    Mr. Walden. Thank you, Dr. Christensen.
    We will now go to the gentlewoman from California, Ms. Bono 
Mack, for questions.
    Mrs. Bono Mack. Thank you, Mr. Chairman, and I thank our 
panelists for very interesting and enlightening discussion.
    Mr. Sharkey, my first question is to you. Mr. Marshall says 
that the people who say industry won't share spectrum are wrong 
because industry shares the wifi band, but as I understand it, 
commercial mobile providers do not use the wifi band as the 
primary means of enabling consumers to access mobile services. 
Instead, commercial mobile providers used--they use cleared 
spectrum for which they have exclusive rights. Isn't that 
correct?
    Mr. Sharkey. That is correct, and as I mentioned, the 
projections of growth are growth on that cleared spectrum, that 
dedicated spectrum, and having that enables us to--we are on a 
cycle of updating technology almost annually now for our 
network and implementing new techniques and technologies, and 
having that cleared assured access to spectrum gives us 
incentives to continue that innovation and growth so that we 
can provide greater data and serve more customers.
    Mrs. Bono Mack. Thank you, and also, Mr. Sharkey, haven't 
preliminary conversations in the Commercial Spectrum Management 
Advisory Committee indicated that the Federal agencies had some 
fundamental misunderstandings about the technical 
specifications underlying the commercial sector's proposed use 
of the spectrum, and don't these types of misunderstandings 
underscore the need for independent verification of agency 
costs and time estimates?
    Mr. Sharkey. I certainly support verification of costs of 
relocating systems, and I think the, you know, some of the 
fundamental misunderstandings go to even our ability to share 
either through a transition period or indefinitely. In our AWS-
1 clearing, we were--we had to work with DoD to get access to 
spectrum earlier than originally anticipated, and we found that 
once--well, initially it looked like we would not get access to 
it. Once the engineers were able to sit down and explain that 
how our systems operate and how they limit the potential for 
interference and noise into where the government systems would 
operate, we were able to access and deploy that spectrum years 
earlier than originally anticipated.
    Mrs. Bono Mack. Thank you.
    Dr. Marshall, in defending PCAST recommended sharing model, 
you assert that sharing will be based on the fundamental 
principle that underutilized Federal spectrum should be shared 
to the greatest possible extent. If that Federal spectrum is 
being underutilized, why shouldn't Federal users be 
consolidated into fewer bands, rather than require commercial 
providers to share spectrum with inefficient and underutilized 
government systems?
    Mr. Marshall. Thank you for the question. So the premise of 
the PCAST report was that there is fundamental different usage 
between the kind of spectrum represented by the commercial 
world and much of the Federal agencies. Federal agency spectrum 
is largely driven by contingency and very geographically 
specific. So in the western test ranges, it is very hard to 
find any open frequencies because there is so much test 
training activity out there, whereas that spectrum in New York 
may be very underutilized. The fact that it is underutilized in 
New York or is it used 7 percent across America--and I don't 
want to quote the number--doesn't mean that you can reduce it 
by 14. They need the peak out in the western test range, but 
they can make available that spectrum in New York. If you do 
reallocation, you essentially have to say I am going to squeeze 
them everywhere. If you do spectrum sharing, you open the 
opportunity to say we are going to commit 90 percent spectrum 
availability in New York, minus a 9/11-like event, but we are 
going to let you still test and train with a full complement of 
spectrum for all your systems. So it lets you not have to make 
a one size fits all, one size goes everywhere in the United 
States solution. So there is no tension at all behind saying 
that Federal spectrum is underutilized in many places, in fact, 
where people are, while at the same time saying you can't 
reduce those allocations. That is the conundrum you faced every 
time people have come to you to say reallocate, reallocate. The 
PCAST report says there is a different solution. Leave it like 
it is, learn to share. It is inconvenient, it is new. We don't 
know how to do it. We shouldn't be afraid of that. Let the 
Federal Government keep what it needs for its contingency. Now 
whether that contingency number is right or wrong is another 
question, but let it keep what it needs for contingency while 
you made the underused portion of that, the temporally and 
geographically underused portion available to people like 
Steve. It is a compromise that meets both side's needs without 
having to do grievous injury to either.
    Mrs. Bono Mack. Thank you. Mr. Chairman, I will yield back 
my time.
    Mr. Walden. Gentlelady yields back. Now gentleman from 
Massachusetts, Mr. Markey, is recognized.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    Back in 1993 when I was chairman of this subcommittee, we 
held hearings on reclaiming spectrum from the military from 
other government agencies, and it was necessity. We only had 
two cell phone companies. They were both analog and they were 
both charging 50 cents a minute. And so we have the hearings 
here, and we moved over 200 megahertz of spectrum. General, 
your predecessor on the job was sitting there, raising national 
security concerns, which we appreciated. But we moved over the 
200 megahertz and created a third, fourth, fifth, and sixth 
cell phone license in each market in the United States by the 
year 1996, and the four new companies in each market went 
digital, dropped the price to under 10 cents a minute, and that 
is the year you all bought a cell phone. I am pretty sure you 
didn't have brick you were carrying around in a bag. There 
might have been a few people, but not many. So we needed that 
revolution.
    And so now we reach, you know, this modern era here where 
the surging growth and data-intensive devices and applications 
is leaving our mobile industries gasping for air or spectrum. 
So it is important for us to find ways of efficiently, in these 
20 years later--it is only actually like 15 years. Everyone 
thinks they have had a cell phone in their pocket their whole 
life, much less an iPhone, and they haven't. It is just a very 
brief period of time that this whole era has existed, but this 
committee had to move over the spectrum and kind of balance the 
interests of the military and other government agencies with 
the need to continue to provide that extra spectrum.
    So when I--Mr. Goldstein, when I talked to Commissioner 
Knapp last year here in the subcommittee hearing, he told me 
that it would be possible that we could increase the efficiency 
of the spectrum we have from 10 to 50 percent. Do you agree 
with that?
    Mr. Goldstein. We haven't looked at that, sir. I would be 
happy to talk to staff about doing it, but we have not done 
work specifically examining that.
    Mr. Markey. OK. General Wheeler, what do you think?
    Mr. Wheeler. I don't have a specific number out there, but 
I don't think that is unreasonable. I think that we can 
increase efficiencies across the board, given the new 
technologies that are going out there.
    If I could clarify about a comment back on that vacating of 
the frequency, I was not here for the DoD guy that was nervous, 
I can tell you that. I was a young captain.
    Mr. Markey. I am sure you understand this.
    Mr. Wheeler. I do, because I was a B2 guy, a stealth bomber 
guy, and part of the area you vacated was the area for my 
radar, and so in that particular area that we had in there, we 
actually had to physically turn off in the weather on certain 
cases. And so we were at a 10-year area where we actually had 
to replace the radar for $1.1 billion and weren't sure we could 
do it in the timeline we did, but we did find a way to do it. 
It did turn out to work. It did cost us money. It caused us 
some safety issues for a while, but we worked through those.
    Mr. Markey. You know what? Here is the deal. Every Democrat 
and Republican on this committee would support whatever money 
you need in order to do that, because honestly, by 1996 
everybody had a cell phone in their pocket and as a result of 
that, the devices got so inexpensive and it was digital that it 
went to every village in the world.
    Mr. Wheeler. It started to balance.
    Mr. Markey. So that is quite a revolution, you know, that 
all happened because the military understood that that might 
actually be a good thing to spread this communications 
technology, but we have to lead it here. So my hope is that--
you are not opposed to this sharing of the spectrum?
    Mr. Wheeler. No, sir, not at all. I think one of the points 
that I think is good to understand is that there is also 
geographics here, and I think that is where we are driving to 
over here, because there are areas where it is more difficult 
to move things from a cost perspective and those areas may--for 
example, a satellite control station, very difficult to change 
a satellite's receiver in orbit, obviously. So instead of doing 
that, you don't use that frequency in that particular area. Go 
ahead, sir.
    Mr. Markey. If I may, according to the President's Council 
of Advisors on Science and Technology, the Federal Government's 
use of domestic spectrum is rising in part because of the 
increasing drone usage here at home. According to this report, 
the number of drones operating by the Department of Defense has 
drastically increased from 167 to nearly 7,500 from 2002 to 
2010, and the systems are carrying larger payloads and 
collecting increased volumes of intelligence, surveillance, and 
reconnaissance data, and that has resulted in a much larger 
increase in the number of domestic training requirements.
    Dr. Marshall, in developing this report, what can you tell 
us about the types of information that the Pentagon collects 
when it flies drones over American soil, and what the 
Department does with that information?
    Mr. Marshall. We certainly didn't audit what the government 
does with the information from the drones. Really, it wasn't 
our--I don't think the PCAST's job to audit the Federal usage. 
It was enough to see that there were these very large Federal 
systems like air traffic controller radar----
    Mr. Markey. I guess what I am asking is do they have 
policies to delete information about innocent Americans that 
they are collecting, the military? Do they have a policy in 
place to delete it?
    Mr. Marshall. I hope they have a policy not to collect it.
    Mr. Markey. You hope they do. Do you have a policy to 
delete----
    Mr. Wheeler. May I clarify? Yes, sir, we have--there is a 
whole legal piece in there and they do that.
    Mr. Markey. Can you provide to the committee the Pentagon 
policy on eradicating all information that is gathered by 
7,500, you know, drones flying over the United States of 
private American citizens----
    Mr. Wheeler. Can I clarify a little bit on that 
particular----
    Mr. Walden. The gentleman will need to move on.
    Mr. Wheeler. I think it is important to understand that 
what happens in Iraq and Afghanistan today, those pilots in 
those UAVs, in many cases, are actually in the United States. 
The airplane may very well not be flying over the United 
States, but the spectrum and the uplink going to the satellite, 
that individual could be, for example, at Nellis Air Force Base 
and he is actually flying the airplane over Iraq and 
Afghanistan. No video taken over the United States, but in fact 
actually using that uplink from Nellis----
    Mr. Markey. No, I appreciate that, and I have been--but 
what I would ask is if, you know, anything that is gathered 
here domestically, in training missions, anything----
    Mr. Wheeler. Absolutely.
    Mr. Markey [continuing]. What happens to that? And there is 
a policy, is that----
    Mr. Wheeler. There is policy there, there is data not 
allowed to be used. There is no--they are very cautious of that 
particular Federal Government--and we will provide those rules 
to you so you can have those.
    Mr. Markey. I think both sides would love to know what 
those rules are. Thank you, Mr. Chairman.
    Mr. Walden. Thank you. We will now go to Mr. Scalise for 5 
minutes for questions.
    Mr. Scalise. Thank you, Mr. Chairman. I appreciate you 
having this hearing. I know as we have done this work on the 
task force over the last few months, I think we all recognize 
that if you look at the economy, one of the growth sectors has 
been the technology industry, and probably one of the few, but 
one of the greatest growing--and you know, as we all use more 
technology, new technology, you know, 3G networks are now 4G 
networks, the demand continues to increase for spectrum. And 
then, of course, as that demand is met it allows for more 
innovation, for more great new products that make everybody's 
life easier, but also creates thousands of new high-paying 
jobs. You know, the jobs in this industry are tremendously 
high-paying, really important to our economy, and also helps us 
as we try to increase exports to lead the world, it is one of 
the areas where we continue to be a dominant force. So figuring 
how to free up more spectrum is critical, not only for the 
industry and the growth of jobs, but also for America's economy 
to grow.
    I appreciate the Federal agencies that we have met with 
over these last few months, and the conversations we have had 
because clearly, there is a lot of spectrum held by the Federal 
Government, and some, I think everybody acknowledges, of which 
can be freed up. How do we best go about that? I think where we 
start, how do we best get an inventory of that available 
spectrum, and I think that has been probably one of the hardest 
things to get a grip on. I think the GAO report brought this up 
and I want to ask Mr. Goldstein about this, because one thing 
it seems like is, you know, to get the inventory we have today 
it was almost like, you know, they went to everybody and said 
how much money do you have available in your savings account 
that you don't want to use? And you know, so when you are 
asking everybody how much spectrum do you have that you don't 
need, I don't know if that is the most objective way to get an 
inventory of spectrum.
    So if you, Mr. Goldstein, can comment on the inventory that 
we have, and is there a better way to get an impartial, true 
inventory of what the Federal agencies hold that they really 
don't need, or could use more efficiently, especially if more 
was freed up where you generate money that could help build out 
a more efficient system for them so that more can be cleared 
and reallocated?
    Mr. Goldstein. Congressman, I think because there is a lack 
of economic incentive on the part of agencies, we found that 
many of them simply don't do the work to figure out how best to 
use the spectrum they have. And we also found in a report last 
year when we surveyed all of the members, you know, in Iraq 
that 15 of the 18 Iraq members expect that they will have 
significant new needs for spectrum. I know that is probably not 
popular in this room right now. We have been talking about 
commercial needs, but almost all of them expressed the need for 
additional--significant additional spectrum themselves.
    Now certainly you could argue they ought to better use the 
spectrum they have, and there needs to be ways in which they 
should do that. One of the recommendations we made to NTIA, 
working with Iraq, was to figure out how better to do that, and 
they agreed with that recommendation. What I don't know is how 
far along they have gotten on that recommendation since that 
report last April.
    Mr. Scalise. And I mean, those are fair points to bring up 
because if you look at, you know, a number of Federal agencies, 
we all acknowledge that some have spectrum that they are using 
and you can identify those areas, but there are also areas that 
they are not using today that they say they will need in the 
future, you know, and in some cases you have got to dig in and 
see is that really something that is realistic? Is that 
something that they are going to truly be using? In some cases 
the answer is yes, and in some cases the answer is probably no, 
but in the case where the answer is yes--and I really want to 
ask General Wheeler this question, because we see in so many 
constraints with the threats of sequestration, the threats to 
the Department of Defense, you know, one of our main 
constitutional duties is to provide for our national defense. I 
think everybody here strongly supports that and wants to make 
sure that you have the tools you need to meet your mission, but 
while at the same time if there have been constraints that have 
held you back from making the most efficient use of the 
spectrum you have, and even the spectrum you are holding that 
you are not using that you might want to use later, if this 
concept of having some kind of incentive, which is a very 
important concept to bring to the table, because of billions of 
dollars will be generated to the Federal Government to make 
this available in the private sector to create those jobs and 
innovation, some of that money can be set on the side to help 
incentivize the agencies that have spectrum today to make 
better use of it, where in some cases you know you can make 
better use, you just don't have the money to do it. And some of 
that money could be made available to give you better use of 
your spectrum, which also frees up spectrum that can then go 
and generate even more money, billions of dollars to the 
Federal Treasury to go out to the private market. So if you can 
share with us what you have looked at in terms of the things 
that you could do if you had some money that was freed up from 
the sale of some of that spectrum that you can actually use to 
help make a more efficient use of what you have today?
    Mr. Wheeler. From the DoD perspective, that is the basis of 
the NDA language that says that we have to have comparable 
spectrum. That is going to take us time, and then we are going 
to have to have money to actually move those systems. Where 
sometimes that difficulty comes in is that happens after the 
auction occurs, and while you are trying to do some of the 
planning up front, we basically front the money, per se, and we 
don't have real good avenues to receive that money within DoD 
from that side of the ballpark. The expectation is when we 
vacate something out of there is that we will have to get 
comparable spectrum time and money per the NDA language that 
actually addresses that specific issue.
    As far as other monetary incentive schemes, we would be 
happy to study those. I don't have any direct answers to them, 
depending upon what the exact language, but I would also go 
back to one of my other comments that I made, that for the most 
part we are trying to vacate those areas and share, if you 
will, and find those efficient methodologies, because we also 
see from our perspective, economy is the strength of our 
Nation. So we are moving those forward, so we are putting a lot 
of assets against that. We actually move those specific areas 
that we are looking at, specifically we talk about the 1755 to 
the 1850. The other side of it is also from the DoD perspective 
is a long-term strategy, a long-term strategy for all of our 
spectrum, so we know what to expect and what we are going to 
move, and how to better purchase equipment, if you will, that 
has flexibility in the future. We can't put a satellite up--we 
are thinking we have to move that particular frequency with a 
single receiver or single transmitter, because it is very 
difficult, obviously, to move that particular piece. And that 
is where that thinking ahead acquisition type cycles are very 
important. And many of the weapons systems that we are bringing 
online today were envisioned, built, engineered 10, 15 years 
ago, in many cases where this was not an issue. So that is what 
we are running into right now is we are having to change the 
way we think from that perspective.
    So we are looking forward to building a long-term strategy 
for our spectrum, from a DoD perspective, to make sure that we 
are using it the most efficient way so that we can predict 
where to put our future systems so we don't run into the issue 
that we recently ran into where we moved from 1710 to 1755 into 
the 1755 to 1850 and now we are looking to move again quickly. 
So we are trying to find smart ways of doing this.
    Mr. Scalise. Thank you, Mr. Chairman. I yield back the 
balance of my time.
    Mr. Walden. Thank you. We will now move on to Mr. Latta 
from Ohio. We welcome your questions.
    Mr. Latta. Well thank you, Mr. Chairman, for the very 
informational hearing that we are having today, and I want to 
thank all of our panelists that are here today for not only 
their testimony, but for their reasoned answers to a lot of 
questions.
    Mr. Racek, if I could turn to your testimony. I found it 
rather interesting because you have a lot of questions that you 
pose, and I would like to see what kind of answers you might be 
able to get.
    You know, in starting with it, you state that your premise 
that pretty much on spectrum clearing or spectrum sharing, 
which way to go, and you said the best way to look at this and 
be the cleanest would be that we should have spectrum clearing 
over the other option of spectrum sharing. If I could just ask 
you a few questions on what you stated, let us get on the 
technical side because, you know, in your testimony a little 
earlier, you said that--you cited a doubling of the global 
mobile data traffic from 2011 to 2012 with a global forecast of 
that going up 15 times by 2017. Do we have the technology out 
there in that--this next 5 years to be able to do that, you 
know, keep up with this if we are looking at global sharing 
versus global clearing?
    Mr. Racek. Thank you, Congressman. That was sort of the 
point of the testimony is that the preference for the or the 
need for dedicated license spectrum is based upon looking at 
the data traffic study, predicting the growth and the ability 
to--for technologies to be able to address that growth. There 
are a lot of developments--as I said in the testimony, Ericsson 
is spending $5 billion in R&D every single year to be able to 
increase the spectrum efficiency of the technology to be able 
to address these sort of data traffic demands. But it is not 
going to be enough. The only way to be able to do that is going 
to be through licensed spectrum.
    Now, licensed spectrum provides the certainty needed for 
the investment and the performance and will be able to provide 
the types of services, but the recognition is that, you know, 
licensed spectrum, it may not always be possible. Obviously if 
the band is identified by 3G PP, we would not want to see that 
band be identified for spectrum sharing, but spectrum sharing 
may be the only option for some bands that are identified by 3G 
PP, but not available in the U.S. So we would still like to 
sort of pursue that as an option, but it is not going to 
replace the need for 500 megahertz as identified by the 
National Broadband Plan.
    Mr. Latta. Let me ask--let me go on with that, then, 
because in one of your other points, especially on the 
regulatory side, you say it is going to take--you say sharing 
raises a number of regulatory challenges, all of which will 
take years to test and model. How many years do you think it 
will take to test and model?
    Mr. Racek. I think that is a difficult question to answer, 
because not all of the questions have been identified yet. I 
think that is part of the activity that we are involved in, 
especially if we look for--look towards CSMAC and the 
investigation that is being conducted within the working 
groups, as well as looking towards international types of 
activities that are starting to maybe look at this type of 
activity, even within PCAST. These sort of things are looking 
at what are the questions and what are the answers to those 
questions. I think that that--we are still in sort of the 
infancy of that process, and there are questions that are out 
there that are yet to be asked, and obviously not answered.
    Mr. Latta. Let me just--one last question. Sorry that I am 
picking on you here, but overall, what would you say would be 
the best way to conduct a spectrum auction? What would be the 
best way to conduct an auction, a spectrum auction?
    Mr. Racek. And you are considering spectrum sharing?
    Mr. Latta. On your end, what would you see as how we should 
do something like that when you are looking at, you know, 
instead of on the sharing side but saying that we should go 
ahead and have some kind of an auction. What would you--how 
would you foresee that and how should we do it?
    Mr. Racek. Well, I think if we are looking--for instance, 
there has been a discussion about the 3550 to 3650 megahertz 
band, and that because of the radar operation in the band, it 
is likely that you would not be able to sort of utilize that in 
the same way with the same type of technologies that you use in 
sort of lower bands that are exclusive use types of bands. But 
there may still be an opportunity to provide some regulatory 
certainty for that spectrum through a licensed shared approach. 
The licensing provides you the protection that you need to be 
able to operate without the fear for being interfered with so 
you can provide a good quality of service to your customers, 
and also, it provides you with the ability, therefore, to have 
an understanding of what the terms and conditions of operations 
are up front, and that, in effect, would provide more value for 
the spectrum so that there is the possibility to auction that 
type of spectrum.
    Mr. Latta. Thank you. Mr. Chairman, I yield back.
    Mr. Walden. Gentleman yields back. Chair now recognizes the 
gentleman from Kentucky, Mr. Guthrie, who co-led our working 
group on this topic. Thank you.
    Mr. Guthrie. Thank you, Mr. Chairman, and I appreciate you 
appointing the working group and bringing that together. I 
really enjoy working with Congresswoman Matsui and a lot of you 
that participated that are here today. We appreciate that very 
much, and no, not every military installation is where people 
don't want to be. Matter of fact, I would suggest coming to 
Fort Knox, Kentucky. It is a very beautiful place, and we are 
next to Louisville. I mean, Fort Knox is within 10 miles, 
probably, of definitely--not the heart of Louisville, but 
suburban Louisville, and so there are San Diego and 
Jacksonville and areas like that that we have to be mindful of 
in sharing. I have been to the Mojave Desert and I agree that I 
probably wouldn't want to go back to the national training 
center, but California has some other beautiful places that the 
military is located, so you have got to be mindful of that.
    One thing--I think I heard Mr. Goldstein said it and I 
wrote down, leap of faith in technology for sharing. I guess my 
question is, if we got all this decided today and tomorrow we 
could turn over either full sharing or licensed--clearing 
license and all--we could snap our fingers and it happened, is 
the technology, I guess, Dr. Marshall, in place today to take 
advantage of that, or is this--we will build it and put it out 
there and have to innovate ourselves to make this work?
    Mr. Marshall. So very clearly the technology exists for 
clear spectrum, although we have shown it takes, even with the 
technology in place, 8 years, if you look at the national 
broadband plan, between identification and occupancy. So it is 
not exactly a rapid process.
    On the shared side, the PCAST report is remarkably 
conservative. We have been attacked for being too aggressive, 
but there are equal attacks for being unaggressive. The 
database technology is not the best way to do this, but it is 
available and it is certain, and it would provide certainty to 
Federal users that they could protect their equities while more 
fancy technologies came into play. So it is technologically 
unstressing.
    What it does do is it continues the evolution towards much 
more flexibility in the provider's side, and so it will require 
the providers to make use of newer technologies, tunable 
filters and all.
    Mr. Guthrie. New technology on the horizon, or new 
technology I will just have to completely--you are imagining 
technologies that don't exist?
    Mr. Marshall. To fully exploit this, they will have to make 
adjustments and initially, like 3.6 gig, one could imagine that 
that band, they could start to use in a sharing fashion very, 
very rapidly. Putting many, many frequencies in a handset 
probably is going to evolve technologies and filters, hopefully 
led by the United States. But LTE already has 27 different 
frequencies, 42 different--so they are heading that way anyway.
    So the PCAST is really a fast, low tech way to go there, 
and then you are going to build the technology in behind it. 
But you will get a lot out of it initially, and then you are 
going to make it better over 5 years.
    Mr. Guthrie. And then the second question, I guess, 
Congressman Latta as he talked to Mr. Racek on the regulatory 
scheme that would have to come into play, and do you agree that 
is a barrier to the type sharing that--I was asking Dr. 
Marshall that--from the PCAST report. Did you all address that? 
I mean, I know you talked about it, but----
    Mr. Marshall. We need to do a regulatory regime that is 
focused on sharing. Today we treat sharing as a special case. 
Steve is negotiating it with Karl, making their private deals. 
We have no framework for it. I think part of the PCAST report 
is just let us admit that that is going to become more and more 
fundamental to our approach to spectrum, and let us not treat 
it as a stepchild. Let us make it transparent. Let us make 
everyone able to make the same deal Steve does with Karl, and 
make that competitive, and in fact, let us auction the right to 
make that deal in a full and open marketplace. So I think it is 
different regulation. I think it is a fundamental commitment to 
a policy there. If we just do it--you don't need PCAST if you 
just want to go do it. We are doing it anyway. The PCAST 
recommendation is to move it forward, put it in front, and 
really think about the policies for financial remuneration, 
like how do I design an auction for shared spectrum? How do I 
deal with the e-911 and all those issues.
    Mr. Guthrie. It is difficult to address, but the 
uncertainty for the users would be--and I am just kind of 
thinking out loud--is that we just said that we are going to 
create a system that nobody--you have to innovate to get there, 
and then people in Washington are going to have come up with a 
regulatory regime to try and manage that and a regulatory 
process is not as flexible as people innovate.
    Mr. Marshall. So we put a new generation of wifi out every 
year. That is incredible. We put a new generation of cell phone 
out every 10 years. If we leave people alone, they will 
innovate the technology. PCAST proposes 3 years to implement 
it, and that was two and three quarters of them in Washington, 
and maybe 3 months for the engineers to start rolling things 
out. It will require a different kind of regulation. It 
requires a different thinking about what spectrum rights mean. 
It doesn't replace what we have now, but it extends it, and 
that is an important dialogue. And frankly, it is a dialogue 
you are not having now if we do spectrum sharing as a bunch of 
one off deals. It is to put it in the framework, put it up 
front, make it a norm, make it so someone who is building a 
venture capital proposal understands what the rules are if they 
go and invest in something that takes spectrum. Imagine doing 
that now where it is 8 years from seeing spectrum going up for 
auction to when you get into it, or do it when you are worried 
about light squarage and you have got to find out what a whole 
pile of forces are. I mean, it is to make this thing 
transparent and predictable, rather than private.
    Mr. Guthrie. Thanks. Thank you, I yield back.
    Mr. Bass [presiding]. Gentleman yields back. Chair 
recognizes himself for 5 minutes for questions. I want to 
apologize in advance because I have been in and out of this 
hearing.
    Mr. Sharkey, your comments focus on the 1755 to 1780 
megahertz sub-band. Does NTIA's reported costs of reallocating 
the current government systems from the entire 1755 to 1850, 
$18 billion, fit with your own internal estimates and your 
experiences with the cost of reallocating government systems in 
the AWS-1 band, and if not, are there any estimates that 
specifically look at costs and potential revenues in the 1755 
to 80 sub-band?
    Mr. Sharkey. Well first, if I can just make it clear that 
there are no private agreements between myself and Karl Nebbia. 
The process we are doing is an open----
    Mr. Bass. Correction, so noted.
    Mr. Sharkey. I think the costs--and I think we do need to 
take a careful look at the costs of relocating systems. The 
costs varied significantly from initial estimates of clearing 
AWS-1 to what were the final costs of clearing that spectrum. 
In a 2001 report, NTIA estimated that clearing the entire band 
up to 1780 would be about $4.6 billion, so now we have got an 
estimate that is $18 billion, and you know, there may be a lot 
that has changed and it is difficult for us to know what the--
you know, what underlies that estimate. So I think it is an 
important one to look at, and you know, one of the important 
issues about getting that estimate right is that under the 
CSEA, the costs of the monies raised in an auction to have to 
cover the cost of reallocating, relocating government users. So 
it is important that the estimate is accurate enough so that we 
have--so that an auction can actually go forward to cover the 
costs.
    Mr. Bass. Second for, I suppose, Mr. Racek, you could 
address this as well. The PCAST study asserts that ``Today's 
apparent shortage of spectrum is, in fact, an illusion brought 
about because of the way spectrum is managed.'' We have spent 
quite a while talking about this, actually. Do you agree with 
that statement? Do you think that carriers are not managing 
spectrum efficiently, or are there design issues associated 
with it?
    Mr. Racek. I think they were probably talking about 
different services other than commercial mobile type of 
services. Maybe they were pointing to other type of activities 
that we see ongoing right now, maybe with respect to incentive 
and voluntary incentive auctions, but I don't think they were 
talking about our industry.
    Mr. Bass. Anybody else want to comment on that? All right.
    Mr. Smith, NTIA's report lists a number of video 
surveillance bands that are used by various Federal agencies. 
Is there any reason law enforcement video systems couldn't use 
LTE to shrink their footprint and share resources?
    Mr. Smith. That is a great question, and certainly, law 
enforcement can and does use cellular technology today for 
certain video streams, and LTE being a video and high 
definition video technology certainly enables that quite 
substantially.
    While I have the mic for just a second, if I could comment, 
there has been a number of questions around clearing versus 
sharing, and I just wanted to make--offer up the thought that 
geographic sharing----
    Mr. Bass. Mr. Smith, you said they have it, but are they 
using it?
    Mr. Smith. Yes. Well, I don't know how much is being used.
    Mr. Bass. All right.
    Mr. Smith. In particular, LTE is just being largely rolled 
out the last year or two, but I don't know how much today.
    But if I could just finish one quick thought and take a 
moment. Geographic sharing is being--you know, has been done in 
the industry, in the cellular industry from the start. You 
know, it is not a technological issue. So if, you know, DoD 
bases today are 24 million acres out of 2.3 billion acres in 
the United States, roughly 1 percent, mostly where people are 
not, and you know, the notion of considering--policymakers 
considering having geographic sharing exclusions on bands for 
LTE use by DoD on bases is something that is in the realm of 
the doable today.
    Mr. Bass. Thank you. I have no further questions. I would 
like to recognize the ranking member of the committee for a 
statement.
    Ms. Eshoo. Thank you, Mr. Chairman, and first to all of our 
witnesses, you--each one of you is absolutely superb. You 
really engaged the members and our thinking. You have given us 
even more to work with, answered a lot of, you know, the tough 
questions, and we are very grateful to you. And sitting here as 
a member of the committee, I can't help but think collectively 
this is why our country is so great and has such enormous 
potential. You all represent that, and we are grateful to you.
    Mr. Stearns is not here, and--but I wanted to make a--say a 
few words about his service, both as a chairman of this 
subcommittee. He has been a member of this subcommittee for 
well over a decade, and has taken the issues very, very 
seriously, has moved the needle on so many things, and I just 
want to say on behalf of my colleagues on this side of the 
aisle, that we wish him all of our best. We wish him all of our 
best and that he will be missed here, and today may very well 
have been the last--his last Telecom Subcommittee hearing. So 
we wish him Godspeed. We thank him for working so hard to make 
important investments for the future of our country. And with 
that, I will yield back.
    Mr. Bass. The Chair thanks the ranking member for her 
comments and would like to associate himself with those remarks 
as well, as I am sure all of the other members of this 
subcommittee and full committee as well.
    There being no other members wishing to ask questions, 
members are reminded that the record will remain open for 10 
days to submit questions for the record. There being no other 
business to come before the subcommittee, the subcommittee 
stands adjourned.
    [Whereupon, at 12:39 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>

</pre></body></html>
